No. 19In the

Supreme Court of the United States
LENARD JOHNSON,
Petitioner,
v.
MEGAN WINFREY,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
William S. Helfand
Counsel of Record
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
(713) 659-6767
bill.helfand@lewisbrisbois.com
Counsel for Petitioner
289925

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
When a claim is brought under Franks v. Delaware,1
does the Fourth Amendment alone fully define the
dimensions of a law enforcement officer’s qualified
immunity or must a reviewing court evaluate clearly
established law in accordance with this Court’s established
procedure governing immunity analysis?

1. 438 U.S. 154, 98 S.Ct. 2674 (1978).

ii
RELATED CASE
United States Court of Appeals for the Fifth Circuit:
Docket No. 18-20022, Megan Winfrey v. Lenard Johnson,
judgment entered March 26, 2019, petition for rehearing
denied April 30, 2019.
United States Supreme Court: Docket No. 18-1024,
Lenard Johnson v. Richard Winfrey, Jr., judgment
entered April 15, 2019.
United States Court of Appeals for the Fifth Circuit:
Docket No. 16-20702, Richard Winfrey, Jr. v. Lacy Rogers,
Former San Jacinto County Sheriff; Lenard Johnson,
Former San Jacinto County Sheriff’s Department
Deputy, judgment entered August 20, 2018, petition for
rehearing denied September 28, 2018.
United States District Court of the Southern District
of Texas, Houston Division: Docket No. 4:14-cv-00448,
Megan Winfrey v. Keith Pikett, et al., judgment entered
December 26, 2017.
United States Court of Appeals for the Fifth Circuit:
Docket No. 16-20728; Megan Winfrey v. Keith Pikett,
judgment entered September 29, 2017.
United States District Court for the Southern District
of Texas, Houston Division: Docket No. H-14-448; Richard
Winfrey, Jr. v. Keith Pikett, et al., judgment entered
October 4, 2016.
Court of Criminal Appeals of Texas: Docket No. PD0943-11, Megan Winfrey, aka Megan Winfrey Hammond

iii
v. The State of Texas, judgment entered February 27, 2013,
petition for rehearing denied April 17, 2013.
United States Court of Appeals for the Fifth Circuit:
Docket No. 11-20555, Richard Winfrey, Jr. v. San Jacinto
County, et al., judgment entered July 27, 2012.
Court of Appeals of Texas, Ninth District, Beaumont:
Docket No. 09-09-00043-CR, Megan Winfrey a/k/a Megan
Winfrey Hammond v. The State of Texas, judgment
entered April 6, 2011, petition for discretionary review
granted November 16, 2011.
United States District Court of the Southern District
of Texas, Houston Division: Docket No. H:10-cv-01896,
Richard Winfrey, Jr. v. San Jacinto County, et al.,
judgment entered July 9, 2011.
In the District Court of San Jacinto County, Texas,
411th Judicial District: Docket No. 9751; The State of
Texas vs. Richard Lynn Winfrey, Jr., judgment entered
June 12, 2009.
In the District Court of San Jacinto County, Texas,
411th Judicial District: Docket No. 9750, The State of
Texas v. Megan Winfrey, judgment entered October 6,
2008.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
RELATED CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
A. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 3
B. Relevant Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . . 13

v
Table of Contents
Page
A. No reasonable law enforcement officer
had fair warning when Deputy Johnson
requested a warrant for Winfrey’s arrest
that the Fifth Circuit would decide
qualified immunity based on a de novo
examination of probable cause a decade
after Deputy Johnson presented his
affidavit to a Texas magistrate. . . . . . . . . . . . . . 13
B. The Fourth A mendment question of
whether Deputy Johnson’s a ff idav it
supported probable cause is not the test
of his immunity.  . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED MARCH 26, 2019  . . . . 1a
APPENDIX B — OPINION WITH APPENDIX
OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF TEXAS, FILED OCTOBER 4, 2016 . . . . . . . . 16a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
FILED APRIL 30, 2019 . . . . . . . . . . . . . . . . . . . . . . 50a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Anderson v. Creighton,
483 U.S. 635, 107 S. Ct. 3034 (1987) . . . . . . . . . passim
Ashcroft v. al-Kidd,
563 U.S. 731, 131 S. Ct. 2074 (2011) . . . . . 14, 28, 29, 31
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937 (2009) . . . . . . . . . . . . . 14
Brosseau v. Haugen,
543 U.S. 194, 125 S. Ct. 596 (2004) . . . . . . . .  13, 14, 31
Chism v. Washington,
661 F.3d 380 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 20
City and County of San Francisco v. Sheehan,
__ U.S. __, 135 S. Ct. 1765 (2015) . . . . . . . . . . . . 21, 22
Davis v. Scherer,
468 U.S. 183, 104 S. Ct. 3012 (1984)  . . . . . . . . . . 13, 18
District of Columbia v. Wesby,
__ U.S. __, 138 S. Ct. 577 (2018) . . . . . . . . . . . . passim
Escalera v. Lunn,
361 F.3d 737 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 23
Franks v. Delaware,
438 U.S. 154, 98 S. Ct. 2674 (1978)  . . . . . . . . . . passim

viii
Cited Authorities
Page
Harlow v. Fitzgerald,
457 U.S. 800, 102 S. Ct. 2727 (1982)  . . . . . . . . . . . . .  17
Hunter v. Bryant,
502 U.S. 224, 112 S. Ct. 534 (1991)  . . . . . 19, 20, 21, 22
Illinois v. Gates,
462 U.S. [213,] 243-244, n.13,
[103 S.Ct. 2317 (1983)] . . . . . . . . . . . . . . . . . . . 24, 25, 30
In re Winfrey,
2009 Tex. Crim. App. LEXIS 1593
(Tex. Crim. App., 2009)  . . . . . . . . . . . . . . . . . . . . . . . . 8
In re Winfrey,
2011 Tex. Crim. App., 2013  . . . . . . . . . . . . . . . . . . . . . 8
Kaley v. United States,
571 U.S. 320, 134 S. Ct. 1090 (2014)  . . . . . . . . . . . . . 24
Malley v. Briggs,
475 U.S. 335, 106 S. Ct. 1092 (1986)  . . . . . . . . . passim
Megan Winfrey v. Lenard Rogers,
766 Fed. Appx. 66 (5th Cir. 2019)  . . . . . . . . . . . . . . . . 4
Melton v. Phillips,
875 F.3d 256 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 32
Miller v. Prince George’s Cty.,
475 F.3d 621 (4th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 20

ix
Cited Authorities
Page
Mullenix v. Luna,
577 U.S. __, 136 S. Ct. 305 (2015) . . . . . . . . . . . . 29, 30
Myers v. Morris,
810 F.2d 1437 (8th Cir. 1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Pierson v. Ray,
386 U.S. 547, 87 S. Ct. 1213 (1967)  . . . . . . . . . . . . . . 23
Plumhoff v. Rickard,
572 U.S. __, 134 S. Ct. 2012 (2014)  . . . . . . . . . . . . . . 29
Reichle v. Howards,
566 U.S. 658, 132 S. Ct. 2088 (2012) . . . . . . . 14, 22, 28
Saldana v. Garza,
684 F.2d 1159 (5th Cir. 1982) . . . . . . . . . . . . . . . . . . . 32
Saucier v. Katz,
533 U.S. 194, 121 S. Ct. 2151 (2001)  . . . . . . . . . . . . . 29
Stanton v. Sims,
571 U.S. 3, 134 S. Ct. 3 (2013)  . . . . . . . . . . . . . . . . . . 32
State v. Winfrey,
323 S.W.3d 875 (Tex. Crim. App. 2010) . . . . . . . . . . . . 8
United States v. Arvizu,
534 U.S. 266, 122 S. Ct. 744 (2002) . . . . . . . . . . . 24, 25

x
Cited Authorities
Page
United States v. Lanier,
520 U.S. 259, 117 S. Ct. 1219 (1997)  . . . . . . . . . . . . . 31
United States v. Leon,
468 U.S. 897, 104 S. Ct. 3405 (1984)  . . . . . . . . . . . . . 15
White v. Pauly,
580 U.S. __, 137 S. Ct. 548 (2017) . . . . . . . . . . . . . . . 30
Wilson v. Layne,
526 U.S. 603, 119 S. Ct. 1692 (1999)  . . . . . . . . . 29+, 32
Winfrey v. Pikett,
2016 U.S. Dist. LEXIS 137897 (S.D. Tex. 2016) . . . . 1
Winfrey v. Rogers,
882 F.3d 187 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 5
Winfrey v. Rogers,
901 F.3d 483 (5th Cir. 2018), pet. for writ
of cert denied, 139 S. Ct. 1549 (2019)  . . . . . 5, 5, 18, 26
Winfrey v. State,
291 S.W.3d 68 (Tex. App. – Beaumont 2009) . . . . . . . 8
Winfrey v. State,
323 S.W.3d 875 (Tex. Crim. App., 2010) . . . . . . . . . . . 9
Winfrey v. State,
338 S.W.3d 687 (Tex. App. – Beaumont 2011) . . . . . . 9

xi
Cited Authorities
Page
Winfrey v. State,
393 S.W.3d 763 (Tex. Crim. App., 2013) . . . . . . . . . . . 9
Ziglar v. Abbasi,
582 U.S. __, 137 S. Ct. 1843 (2017) . . . . . . . . . . . . . . 30
STATUTES AND OTHER AUTHORITIES
U.S. Const., amend. IV  . . . . . . . . . . . . . . . . . . . . . . . . 2, 19
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Sup. Ct. R. 13(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINIONS BELOW
The unpublished opinion of the United States Court
of Appeals for the Fifth Circuit filed on March 26, 2019,
Megan Winfrey v. Lenard Rogers, 766 Fed. Appx. 66 (5th
Cir. 2019), is set forth in Appendix A.
The unpublished opinion of the United States District
Court of the Southern District of Texas filed on October
4, 2016, Winfrey v. Pikett, 2016 U.S. Dist. LEXIS 137897
(S.D. Tex. 2016), is set forth in Appendix B.
The order denying rehearing in the United States
Court of Appeals for the Fifth Circuit filed on April 30,
2019, is set forth in Appendix C.
JURISDICTIONAL STATEMENT
The United States Court of Appeals for the Fifth
Circuit had jurisdiction, under 28 U.S.C. § 1291, over the
district court final judgment in Petitioner’s favor.
On April 30, 2018, the United States Court of Appeals
for the Fifth Circuit denied Petitioner’s petition for
rehearing en banc. (App. C).
This Court has jurisdiction over the case under 28
U.S.C. § 1254(1) and Rule 13(3) of the Rules of the Supreme
Court because within 90 days after the United States
Court of Appeals for the Fifth Circuit denied Petitioner’s
petition for rehearing en banc, Petitioner timely filed this
petition for a writ of certiorari by July 29, 2019.

2
Petitioner seeks this Court’s review under Supreme
Court Rule 10 because the United States Court of Appeals
for the Fifth Circuit decided important federal questions
in a way that conflicts with the relevant decisions of this
Court and other United States courts of appeal on the
same important matter, and the Court of Appeals decision
so far departs from the accepted and usual course of
judicial proceedings as to call for an exercise of this
Court’s supervisory power.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourth Amendment to the Constitution
of the United States
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
42 United States Code § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought

3
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.
STATEMENT OF THE CASE
A. Procedural History
Respondent Megan Winfrey1 claims Petitioner Deputy
Lenard Johnson violated the Fourth Amendment based
upon this Court’s decision in Franks v. Delaware, 438
U.S. 154, 98 S.Ct. 2674 (1978), by allegedly including false
information necessary to establish probable cause in an
affidavit Deputy Johnson presented to a magistrate that
precipitated a warrant for Winfrey’s arrest. (App.5a-6a).
Winfrey’s allegation stems, in part, from a misstatement
Deputy Johnson made in a warrant application. During the
investigation, Texas Ranger Grover Huff made an error
documenting the use of Winfrey’s boyfriend Christopher
Hammond’s scent during a drop trail procedure used
with tracking dogs. (App.28a). Although written reports
documented Ranger Huff’s mistake, there is no evidence
anyone informed Deputy Johnson of the scent mix-up2
1. Megan Winfrey will be referred to as “Winfrey,” Richard
Winfrey, Sr. referred to as “Richard Sr.,” and Richard Winfrey
Jr. is referred to as “Richard Jr.”
2. All claims brought against Ranger Huff were dismissed
based on his qualified immunity. Winfrey, 481 Fed. Appx. 969,
976 (5th Cir. 2012).

4
and Deputy Johnson testified he was not aware of Ranger
Huff’s error. (ROA.1458-1463, 1468-1476, 1502-1507, 15161521). Ranger Huff’s error later appeared in the warrant
application Deputy Johnson presented to a magistrate.
Deputy Johnson moved for summary judgment on
the grounds he did not violate the Fourth Amendment
and, arguendo even if had, he is nonetheless entitled to
summary judgment based on qualified immunity. (7a);
Winfrey v. Rogers, 901 F.3d 483, 488 (5th Cir. 2018), pet.
for writ of cert denied, 139 S.Ct. 1549 (2019). The district
court performed a thorough analysis of the evidence
and found that regardless of whether Deputy Johnson
recklessly misrepresented, or omitted, relevant facts in
the warrant application, a reasonable magistrate could
conclude the affidavit supported probable cause. (App.38a).
The Fifth Circuit, however, disagreed with the district
court. (App.7a). The Fifth Circuit denied immunity to
Deputy Johnson based on its opinion the warrant affidavit
he presented violated the Fourth Amendment under
Franks supra, and that constitutional violation alone
divested Deputy Johnson of immunity. Winfrey, 901 F.3d
at 496. Deputy Johnson petitioned the Fifth Circuit to
rehear en banc Megan Winfrey v. Lenard Rogers, 766 Fed.
Appx. 66 (5th Cir. 2019), (App.1a), but the Fifth Circuit
declined to do so. (App.51a).
Winfrey’s brother, Richard Jr., also filed suit with
essentially the same allegations. (App.3a). The district
court also granted summary judgment in his case.
(App.3a). Richard Jr.’s appeal preceded Winfrey’s and a
panel of the Fifth Circuit issued an opinion vacating the
district court judgment on the premise Deputy “Johnson
has not established that a corrected affidavit would show

5
probable cause to arrest Junior.” Winfrey v. Rogers,
882 F.3d 187, 200 (5th Cir. 2018). After Deputy Johnson
petitioned the Fifth Circuit to reconsider his immunity,
the panel withdrew Winfrey, 882 F.3d 187, and substituted
Winfrey, 901 F.3d 483, wherein the panel corrected factual
errors in its former opinion and excised a portion, but not
all, of its initial opinion that expressly stated the panel
had misplaced the burden of establishing immunity upon
Deputy Johnson. The substituted opinion, however, still
denied immunity to Deputy Johnson based solely on the
opined constitutional violation under Franks, supra,
without the panel analyzing immunity beyond the Fourth
Amendment question. See id. The Fifth Circuit denied
Deputy’s Johnsons petition for rehearing en banc. Id.
Due to the Fifth Circuit’s rule of orderliness, the panel
that later decided the instant case,(App.2a, 9a), opined
it could not overrule Winfrey, 901 F.3d at 483 because it
was decided earlier. (App.9a). Therefore, Deputy Johnson
petitions this Court to grant Deputy Johnson’s Petition
for a Writ of Certiorari, correct the Fifth Circuit opinion
that conflicts with the decisions of this Court, and render
judgment in Deputy Johnson’s favor.
B. Relevant Facts
Criminals murdered Murray Burr, (App. 2a). 3
(App.17a). Texas Ranger Huff, Ranger Ronald Duff,
Deputy Johnson, and Sheriff Lacy Rogers, investigated
the murder under the guidance of District Attorney Bill
Burnett. (App.17a).
3. For both lawsuits, the Fifth Circuit expressly adopted
the factual recitations in Winfrey, 901 F.3d at 488-90. (App.2a).

6
Winfrey attended the high school where Burr was
employed, and socialized with Burr at his home. Id.
Winfrey had asked Burr if she could move in with him. Id.
A teacher observed Winfrey arm in arm with Burr and
the teacher heard Winfrey ask Burr if he was going to
take her out and spend some of the money he had hidden
in his house on her. Id. A different teacher observed and
overheard a verbal dispute between Burr and Winfrey,
after which Winfrey exclaimed someone should beat the
shit out of Burr. Id. Yet another teacher reported that
Winfrey had acted violently toward the teacher. (App.17a,
19a, 47a-49a).
During the investigation, Winfrey’s father Richard
Sr. was jailed on charges unrelated to Burr’s murder
when Richard Sr.’s cellmate David Campbell contacted
Deputy Johnson and reported that Richard Sr. had
made statements implicating Richard Sr. and Winfrey
in Burr’s murder. (App.2a). The Fifth Circuit panel
found no evidence any investigator coached Campbell or
manipulated his statements. (App.14a). A different jail
inmate, Keith Mujica, similarly reported that, while in
jail, Winfrey Sr. confessed to committing the Burr murder.
(ROA.2445-2523). Campbell also informed investigators
that Richard Sr. said he took two guns from Burr’s
home at the time of the murder and investigators later
independently corroborated that two guns were taken
from Burr’s home. (App.19a-20a). Investigators did not
know this information before learning Richard Sr. said it.
Id. Investigators also found a location on a Winfrey family
property that matched the location Richard Sr. told his
cellmate the murder weapon was placed at one point in
time. (App.19a-20a, 47a-49a).

7
Two and one-half years after Burr’s murder, District
Attorney Bill Burnett summoned Ranger Huff, Deputy
Johnson, and other investigators to a conference on
February 2, 2007, (ROA.4415, 1470-1474), at which the
District Attorney announced he had concluded that
sufficient evidence existed to arrest Winfrey, Richard Sr.,
and Richard Jr. and charge them with committing Burr’s
murder. (ROA.1450-1463, 1481-1482, 1524-1526, 1544-1547,
1575-1581). During the conference, Ranger Huff expressed
his opinion that it may be difficult to convict Winfrey
(ROA.1577-1578), but District Attorney Burnett assured
Ranger Huff that the District Attorney believed sufficient
evidence existed to convict. (ROA.1578-1579). Although he
questioned whether a jury would convict Winfrey, Ranger
Huff agreed probable cause existed to file charges and
arrest Winfrey. (ROA.1479-1482, 1511-1512, 1522-1527).
At District Attorney Burnett’s direction on the same
day Burnett called the meeting, Deputy Johnson submitted
a warrant affidavit to San Jacinto County magistrate Greg
Magee who issued a warrant authorizing Winfrey’s arrest.
(App.21a). The federal district court specifically analyzed
the content of Deputy Johnson’s affidavit, including
Winfrey’s complaints about it. (App.16a-49a). Deputy
Johnson’s affidavit included all of the information detailed
supra. Id. Also on the day of the conference, District
Attorney Burnett directed an investigator from his office,
James Kirk, and the Rangers to handle all further aspects
of the case after Deputy Johnson submitted the warrant
application. (App.10a). The Rangers and Investigator Kirk
performed all investigative activities from that point,
including follow-up interviews with Campbell and other
grand jury and trial witnesses. (App.10a). After obtaining
the warrant authorizing Winfrey’s arrest, Deputy

8
Johnson had no further involvement in the investigation,
subsequent prosecution, or trial of Winfrey or Richard
Jr. (App.10a).
After District Attorney Burnett, Ranger Huff, and the
judge who issued the arrest warrant each independently
concluded on February 2, 2007, that probable cause
existed to arrest and charge Winfrey, San Jacinto County
district court Judge Robert Trapp presided over an
evidentiary hearing six weeks later after which Judge
Trapp issued an order expressly finding probable cause to
charge and detain Winfrey for murdering Burr. (App.9a).
The following month, a San Jacinto County grand jury
returned indictments against Winfrey, Richard Sr., and
Richard Jr. based on Burr’s murder. (ROA.2447, 2470);
State v.Winfrey, 323 S.W.3d 875, 876 n.1 (Tex. Crim. App.
2010). Deputy Johnson did not appear before the grand
jury and there is no evidence that his affidavit or anything
else he prepared in the investigation was presented to the
grand jury. (App.10a). Nine months later, a separate San
Jacinto County grand jury again found probable cause to
indict Winfrey on the charge of capital murder without
any testimony from Deputy Johnson. (App.10a).
Juries convicted both Winfrey and Richard Sr. of
murdering Burr. (App.3a; ROA.1403). Texas Courts of
Appeal affirmed both convictions. See Winfrey v. State,
338 S.W.3d 687 (Tex. App. – Beaumont 2011), pet. for
discretionary review granted, In re Winfrey, 2011 Tex.
Crim. App., 2013) (Megan Winfrey), and Winfrey v.
State, 291 S.W.3d 68 (Tex. App. – Beaumont 2009), pet.
for discretionary review granted by, In re Winfrey, 2009
Tex. Crim. App. LEXIS 1593 (Tex. Crim. App., 2009)
(Richard Sr.). The Texas Court of Criminal Appeals

9
ultimately reversed the convictions finding the evidence
did not prove guilt beyond a reasonable doubt. See Winfrey
v. State, 393 S.W.3d 763 (Tex. Crim. App., 2013) (Megan);
and Winfrey v. State, 323 S.W.3d 875 (Tex. Crim. App.,
2010) (Richard Sr.). Two judges dissented and Judge
Keller filed a dissenting opinion analyzing the facts and
explaining why he found the evidence against Winfrey
proved her guilt beyond a reasonable doubt. See Winfrey,
393 S.W.3d at 774-80. The content of the opinions from
the Texas courts of appeal and Texas Courts of Criminal
Appeals, as well as the evidentiary record in this civil
appeal, show that the Texas courts with jurisdiction
over the criminal cases were aware of the information
which forms the basis of Winfrey’s civil claims against
Deputy Johnson. (ROA.1394-1398, 2445-2523, 2599-3101,
3246-3821); Winfrey, 393 S.W.3d at 764-774; Winfrey,
338 S.W.3d at 689-699; Winfrey, 323 S.W.3d at 876-885.
Information from the criminal cases, and arguments made
in the criminal courts resurfaced as allegations in the two
Winfrey civil complaints. (App.2a, 10a, 14a, 23a); see also
Winfrey, 901 F.3d at 487.
In the course of the litigation, Sheriff Rogers and
Federal Bureau of Investigation Special Agent Mark
Young testified they each concluded the evidence Deputy
Johnson submitted to Magistrate Magee established
probable cause for Winfrey’s arrest and prosecution.
(ROA.1450, 1624).

10
SUMMARY OF THE ARGUMENT
In Franks, 438 U.S. at 155, 98 S.Ct. 2674, this Court
considered whether “a defendant in a criminal proceeding
ever ha[s] the right, under the Fourth and Fourteenth
Amendments, subsequent to the ex parte issuance of a
search warrant, to challenge the truthfulness of factual
statements made in an affidavit supporting the warrant.”
The Court decided “that where the defendant makes a
substantial preliminary showing that a false statement
knowing and intentionally, or with reckless disregard
for the truth, was included by the affiant in the warrant
affidavit, and if the allegedly false statement is necessary
to the finding of probable cause, the Fourth Amendment
requires that a hearing be held at the defendant’s request.”
Id. at 155-156, 98 S.Ct. 2674 (emphasis added).
In an unprecedented expansion of Franks, the Fifth
Circuit has construed the phrase “false statement” to
include information that is not in a warrant affidavit
the Fifth Circuit opines should have been included in
the affidavit. This Court has not so extended Franks,
supra, but has held that claims brought under Franks are
properly analyzed under this Court’s qualified immunity
jurisprudence. In the context of a situation where an
officer has applied for a warrant, this Court has held
that evaluation of whether the officer’s affidavit supports
probable cause is appropriate for determining whether the
officer violated the Fourth Amendment, but not whether
the officer is protected by qualified immunity. This Court
has consistently analyzed the probable cause component
of the Fourth Amendment separately from the distinct
qualified immunity issue of whether an officer’s action
violated clearly established law. Qualified immunity

11
recognizes that to require officers to perform their duties
perfectly or face personal liability could dampen the ardor
of even the most dedicated public servants. Therefore, it
serves the public interest to allow officers a reasonable
range within which to perform their duties. Additionally,
immunity recognizes the fundamental unfairness of
subjecting an officer to damages unless the officer knew
when he acted that his conduct was unlawful. Therefore,
officers are generally immune unless they violate clearly
established law.
For longer than 35 years this Court has recognized
that reasonable minds often differ in their opinions
of whether particular facts establish probable cause
for an arrest. These decisions demonstrate that even
judicial authorities may reasonably have differing views
regarding probable cause. When even judges cannot
agree about probable cause, it is patently unfair to expect
a law enforcement officer to make that legal judgment
better than judicial officers. But the issue in this case
extends beyond the differences objective people may have
assessing probable cause. This Court has defined the
immunity available to an officer beyond mere probable
cause. Relevant authorities reveal that an officer who
requests a warrant or arrests a person suspected of
committing a crime is immune from suit and unwarranted
burdens of litigation if a reasonable officer could have
believed probable cause existed. The Fifth Circuit erred
because it failed to apply that controlling standard to the
evidence in this case.
This Court’s precedents also inform officers that,
absent unusual circumstances, the general rule is that a
plaintiff must identify a body of relevant case law wherein

12
officers were found to have violated the Fourth Amendment
when they acted as did a police defendant. Furthermore,
for an officer to have fair warning his particular conduct
was clearly unlawful, this Court requires identification
of the right an officer infringed at a meaningful level of
particularity such that every officer would know when the
officer acted that his actions were forbidden in the factual
circumstances the officer encountered.
Neither Winfrey nor the Fifth Circuit has satisfied
these standards. The Fifth Circuit did not consider,
evaluate, or decide whether every reasonable officer could
have believed the affidavit Deputy Johnson presented
established probable cause. The Fifth Circuit did not
even identify any standard a reasonable officer could
have learned from in 2007 which would have taught him
to anticipate the facts the Fifth Circuit would focus its
interest on or foresee the opinion the Fifth Circuit would
reach. No objective officer could have learned, through any
objective standard, that he must have assessed the facts
in this case as did the Fifth Circuit because its opinion is
based on a subjective weighing of unusual facts, specific to
this case, that Deputy Johnson had no way of predicting
when he requested the warrant. The Fifth Circuit denied
immunity to Deputy Johnson without providing him with
any of the protections immunity offers.
Deputy Johnson petitions this Court because the
Fourth Amendment alone does not define the dimensions
of a law enforcement officer’s immunity. No reasonable
officer had fair warning when Deputy Johnson requested
a warrant for Winfrey’s arrest that the Fifth Circuit
would decide immunity based on a de novo examination of
probable cause a decade after Deputy Johnson presented

13
his affidavit to a magistrate. The Fifth Circuit, therefore,
erred so Deputy Johnson asks this Court to correct
the error. Since the Fifth Circuit incorrectly decided
important federal questions in a way that conflicts with
relevant decisions of this Court and other courts of
appeal, and entered an opinion that so far departs from
the accepted and usual course of judicial proceedings,
this Court should exercise its supervisory power to
protect Deputy Johnson’s immunity and preserve judicial
precedent.
REASONS FOR GRANTING THE PETITION
A. No reasonable law enforcement officer had fair
warning when Deputy Johnson requested a warrant
for Winfrey’s arrest that the Fifth Circuit would
decide qualified immunity based on a de novo
examination of probable cause a decade after
Deputy Johnson presented his affidavit to a Texas
magistrate.
Under this Court’s firmly settled precedents, the
bedrock of qualified immunity is fair notice to a law
enforcement officer when he acts warning him that his
particular conduct is then clearly unlawful in the specific
circumstance the officer is encountering. See Brosseau
v. Haugen, 543 U.S. 194, 205, 125 S.Ct. 596 (2004) (per
curiam). “The general rule of qualified immunity is
intended to provide government officials with the ability
‘reasonably [to] anticipate when their conduct may give
rise to liability for damages.’” Anderson v. Creighton,
483 U.S. 635, 646, 107 S.Ct. 3034 (1987) (quoting Davis
v. Scherer, 468 U.S. 183, 195, 104 S.Ct. 3012 (1984)).
Therefore, “[a] plaintiff who seeks damages for violation

14
of constitutional or statutory rights may overcome the
defendant office[er]’s qualified immunity only by showing
that those rights were clearly established at the time of
the conduct at issue.” Davis, 468 U.S. at 197, 104 S.Ct.
3012; Ashcroft v. Iqbal, 556 U.S. 662, 675, 129 S.Ct.
1937 (2009). “The requirement that the law be clearly
established is designed to ensure that officers have fair
notice of what conduct is proscribed.” Brosseau, 543 U.S.
at 205, 125 S.Ct. 596. “To be clearly established, a right
must be sufficiently clear that every reasonable offic[er]
would [have understood] that what he is doing violates that
right.” Reichle v. Howards, 566 U.S. 658, 664, 132 S.Ct.
2088 (2012) (citing Ashcroft v. al-Kidd, 563 U.S. 731, 741,
131 S.Ct. 2074 (2011) (quoting Anderson, 483 U.S. at 640,
107 S.Ct. 3034)).
Franks, supra, provided Deputy Johnson no warning
that following the District Attorney’s direction to submit
the warrant application to a magistrate was so clearly
illegal as to divest Deputy Johnson of immunity even
if, arguendo, his affidavit violated Winfrey’s Fourth
Amendment right. Franks, 438 U.S. at 155-156, 98 S.Ct.
2674, is a rule of limited scope “that [applies], where [a
criminal] defendant makes a substantial preliminary
showing that a false statement knowing and intentionally,
or with reckless disregard for the truth, was included by
the affiant in the warrant affidavit, if the allegedly false
statement is necessary to the finding of probable cause,
[and when these stringent conditions are satisfied] the
Fourth Amendment requires that a hearing be held at
the defendant’s request.” (emphasis added). “Allegations
of negligence or innocent mistake are insufficient” under
Franks. Id. at 171, 98 S.Ct. 2674.

15
In Franks, a detective who prepared a warrant
application wrote he had directly spoken to individuals
who provided information, despite the fact the detective
actually received the information third-hand through
another officer. The Franks court did not analyze whether
the detective’s conduct was unconstitutional, but only set
out a general procedure for determining the validity of
a warrant in these general circumstances. Id. at 164, 98
S.Ct. 2674. The Franks court expressed its unwillingness
to extend the reach of its exclusionary rule decision to
“civil” proceedings. Id. at 171, 98 S.Ct. 2674. Accordingly,
the Franks opinion certainly could not have informed
any officer, under the vastly different circumstances
thrust upon Deputy Johnson in responding to the District
Attorney’s direction, that Deputy Johnson’s conduct was
clearly illegal.
Malley v. Briggs, 475 U.S. 335, 344, 106 S.Ct. 1092
(1986), incorporated Franks, supra, into a 42 U.S.C.
§ 1983 lawsuit holding “the same standard of objective
reasonableness that [this Court] applied in the context of
a suppression hearing in [United States v. Leon, 468 U.S.
897, 104 S.Ct. 3405 (1984)], defines the qualified immunity
accorded an officer whose request for a warrant allegedly
caused an unconstitutional arrest.”
Necessarily distinct from the Fourth Amendment
probable cause inquiry, the different question of
immunity “is whether a reasonably well-trained officer
in petitioner’s position would have known that his
affidavit failed to establish probable cause and that he
should not have applied for the warrant.” Malley, 475
U.S. at 345, 106 S.Ct. 1092 (emphasis added).

16
The question presented in Malley was identification:
of the degree of immunity accorded a defendant
police officer in a damages action under 42
U.S.C. § 1983 when it is alleged that the officer
caused the plaintiffs to be unconstitutionally
arrested by presenting a judge with a complaint
and a supporting affidavit which failed to
establish probable cause.
Malley, 475 U.S. at 337, 106 S.Ct. 1092 (emphasis added).
In 1986, this Court answered that question. When
“officers of reasonable competence could disagree on
this issue, immunity should be recognized.” Id. at 341,
106 S.Ct. 1092. Malley, supra, demonstrates the Fifth
Circuit erred when it opined Deputy Johnson’s immunity
depended on whether probable cause supported Winfrey’s
arrest. Whether an officer violated clearly established law
must be assessed based on information every officer knew
when the officer requested the warrant. Malley shows an
officer’s immunity does not remain indeterminate until
after the last judicial authority opines in whether probable
cause supported the warrant.
This Court has “previously extended qualified
immunity to officials who were alleged to have violated
the Fourth Amendment.” Anderson, 483 U.S. at 643, 107
S.Ct. 3034. The Court has “frequently observed, and [its]
many cases on the point amply demonstrate, the difficulty
of determining whether particular searches or seizures
comport with the Fourth Amendment.” Anderson, 483
U.S. at 644, 107 S.Ct. 3034. “Law enforcement officers
whose judgments are objectively legally reasonable
should no more be held personally liable in damages than

17
should officials making analogous determinations in other
areas of law.” Id. “[T]he doctrine of qualified immunity
reflects a balance that has been struck ‘across the board.’”
Anderson, 483 U.S. at 642, 107 S.Ct. 3034 (quoting Harlow
v. Fitzgerald, 457 U.S. 800, 821, 102 S.Ct. 2727 (1982).
In Anderson, 483 U.S. at 636, 107 S.Ct. 3034, the Court
answered the question of “whether a [] law enforcement
officer who participates in a search that violates the Fourth
Amendment may be held personally liable for money
damages if a reasonable officer could have believed that the
search comported with the Fourth Amendment.” Creighton
accused FBI Agent Anderson of performing a search not
supported by probable cause. Id. The Eighth Circuit denied
immunity to Agent Anderson based on the opinion “the
right of persons to be protected from warrantless searches
of their home unless the searching officers have probable
cause and there are exigent circumstances – was clearly
established.” Anderson, 483 U.S. at 638, 107 S.Ct. at 3034.
“But if the test of ‘clearly established law’ were to
be applied at this level of generality, it would bear no
relationship to the ‘objective legal reasonableness’ that is
the touchstone of Harlow, supra.” Anderson, 483 U.S. at
639, 107 S.Ct. 3034. “Plaintiffs would be able to convert
the rule of qualified immunity that [this Court’s decisions]
plainly establish into a rule of virtually unqualified liability
simply by alleging violation of extremely abstract rights.”
Anderson, 483 U.S. at 639, 107 S.Ct. 3034.
Such an approach, in sum, would destroy “the
balance [this Court’s] cases strike between
the interests in v indication of citizens”
constitutional rights and in public officials’
effective performance of their duties, by

18
making it impossible for officials “reasonably
[to] anticipate when their conduct may give rise
to liability for damages.”
Anderson, 483 U.S. at 639-40, 107 S.Ct. 3034 (quoting
Davis, 468 U.S. at 197, 104 S.Ct. 3012).
The Fifth Circuit repeated the Eighth Circuit’s error
by denying immunity to Deputy Johnson on a general
claimed right “to be free from police arrest without a good
faith showing of probable cause.” Winfrey, 901 F.3d at 494.
Even if the Fifth Circuit had accurately stated a broad
right, the Fifth Circuit certainly did not identify a relevant
clearly established constitutional right under Anderson,
supra. “It should not be surprising, therefore, that [this
Court’s] cases establish that the right the official is alleged
to have violated must have been ‘clearly established’ in
a more particularized, and hence more relevant, sense:
The contours of the right must be sufficiently clear that
a reasonable official would understand that what he is
doing violates that right.” Anderson, 483 U.S. at 640,
107 S.Ct. at 3034 (emphasis added).
Deputy Johnson could not have known what he was
doing was clearly unlawful based only on the general
understanding that Winfrey had a right “to be free from
police arrest without a good faith showing of probable
cause.” Winfrey, 901 F.3d at 494. “It simply does not
follow immediately from the conclusion that it was firmly
established that warrantless searches not supported by
probable cause violate the Fourth Amendment that [Agent]
Anderson’s search was objectively legally unreasonable.”
Anderson, 483 U.S. at 641, 107 S.Ct. at 3034. The same
is true of Deputy Johnson’s conduct, he had no notice or
warning his action was clearly unlawful.

19
This Court has “recognized that it is inevitable that
law enforcement office[er]s will in some cases reasonably
but mistakenly conclude that probable cause is present,
and [the Court has] indicated that in such cases those
office[er]s – like other officials who act in ways they
reasonably believe to be lawful – should not be personally
liable.” Anderson, 483 U.S. at 641, 107 S.Ct. 3034. “The
relevant question in this case, for example, is the objective
(albeit fact-specific) question whether a reasonable officer
could have believed [the] search to be lawful, in light of
clearly established law and the information the searching
officers possessed.” Anderson, 483 U.S. at 641, 107 S.Ct.
3034 (emphasis added).
The Fifth Circuit never addressed the question this
Court’s precedent explains governs Deputy Johnson’s
immunity: whether an objective officer could have
reasonably believed the warrant affidavit was lawful. The
controlling clearly established legal standard the Fifth
Circuit failed to apply to determine Deputy Johnson’s
immunity is that “[e]ven law enforcement officials who
‘reasonably but mistakenly conclude that probable cause is
present’ are entitled to immunity.” Hunter v. Bryant, 502
U.S. 224, 227, 112 S.Ct. 534 (1991) (per curiam). Instead,
the Fifth Circuit rejected this settled legal principle when
it errantly merged the probable cause component of the
Fourth Amendment with the separate issue of whether
Deputy Johnson is immune because an objective officer
could have reasonably believed the affidavit supported
probable cause.4
4. Compare the Fourth and Ninth circuit courts similar error
merging the Fourth Amendment question with immunity and
automatically denying immunity on claims under Franks based

20
Another decision that demonstrates the error below
is Hunter, 502 U.S. at 226, 112 S.Ct. 534, wherein Bryant
accused secret service agents of violating the Fourth
Amendment after agents arrested Bryant and charged
him with making threats against the President. The Fifth
Circuit’s error in the case now before the Court is akin to
that the Ninth Circuit made which this Court corrected in
Hunter, supra, after the Ninth Circuit disagreed with the
law enforcement officers’ and magistrate’s assessments of
probable cause. The Ninth Circuit opined secret service
officers “failed to sustain the burden of establishing
qualified immunity because their reason for arresting
Bryant [] was not the most reasonable” interpretation of
the facts. Like the Fifth Circuit here, the Ninth Circuit
provided its purported more reasonable interpretation of
the facts. Hunter, 502 U.S. at 227, 112 S.Ct. 534. Like the
Fifth Circuit in the case at bar, the Ninth Circuit ignored
this Court’s immunity decisions and applied a “wrong”
legal standard by misplacing immunity in the hands of
a jury and failing to answer the necessary question of
“whether the agents acted reasonably under settled law
in the circumstances, not whether another reasonable,
or more reasonable, interpretation of the events can be
constructed five years after the fact.” Hunter, 502 U.S.
at 228, 112 S.Ct. 534. “Even if [this Court] assumed,
arguendo, that [the agents] (and the magistrate) erred in
concluding that probable cause existed to arrest Bryant,
on a Fourth Amendment violation alone. See Miller v. Prince
George’s Cty., 475 F.3d 621, 631-632 (4th Cir. 2007) and Chism v.
Washington, 661 F.3d 380, 393 (9th Cir. 2011). The Eighth Circuit
merges the analysis only when probable cause is based solely on
false information. Myers v. Morris, 810 F.2d 1437, 1457 (8th Cir.
1987). Although the legal error is the same, these cases are not
factually analogous to Deputy Johnson’s circumstances.

21
the agents nevertheless would be entitled to qualified
immunity because their decision was reasonable, even if
mistaken.” Hunter, 502 U.S. at 228-29, 112 S.Ct. at 534.
Malley, Anderson, and Hunter plainly illustrate the
error in failing to assess Deputy Johnson’s immunity
under a clearly established legal standard separate
from the question of whether there is evidence of a lack
of probable cause. The Fifth Circuit not only failed to
consider, evaluate, or decide whether every reasonable
officer would have known the warrant affidavit Deputy
Johnson presented was clearly deficient, the Fifth Circuit
did not even identify any standard a reasonable officer
could have learned from in 2007 to have enabled him to
predict either the manner the Fifth Circuit utilized, or
the after-the-fact opinion regarding probable cause the
Fifth Circuit reached, regarding the lawfulness of Deputy
Johnson’s action.
The sole authority the Fifth Circuit cited as support for
its subjective opinion is that the purported constitutional
right “to be free from police arrest without a good faith
showing of probable cause” has been clearly established
since this Court decided Franks, supra. However, this
Court’s decisions do not support that Fifth Circuit
opinion of controlling law. Malley, Anderson, and Hunter
demonstrate, otherwise, that the Fifth Circuit opinion
failed to utilize a valid measure of Deputy Johnson’s
compliance with clearly established legal authorities. “No
matter how carefully a reasonable officer read [Franks],
…beforehand, that officer could not know that” submitting
the affidavit Deputy Johnson presented was clearly
unlawful in 2007. City and County of San Francisco v.
Sheehan, __ U.S. __, 135 S.Ct. 1765, 1777 (2015).

22
To the contrary, an objective officer relying on Malley,
Anderson, and Hunter would have reasonably believed
in 2007, and thereafter, that every officer’s immunity
would be judged by assessing whether the officer had fair
warning when he acted that his specific action was then
clearly unlawful in the particular circumstances the officer
encountered. This Court identifies clearly established law,
Reichle, 566 U.S. at 665-666, 132 S.Ct. 2088 (2012), and
has never held an officer’s immunity in abeyance like the
Fifth Circuit has until the last court with an opportunity
to consider probable cause renders its opinion about that
Fourth Amendment question. Id. “Without that ‘fair notice’
an officer is entitled to qualified immunity.” Sheehan, 135
S.Ct. at 1777. The Fifth Circuit procedure of subjectively
weighing information Deputy Johnson included in his
affidavit against information that was not in his affidavit
to reach a new opinion regarding probable cause that no
prior criminal justice professional or judicial authority
had reached based on the same information, deprived
Deputy Johnson of protections provided by immunity.
No reasonable officer could have known the Fifth Circuit
would judge Deputy Johnson’s immunity in this unsound
manner, or could have foretold the Fifth Circuit would
opine probable cause was lacking without applying any
identifiable standard supporting that bald opinion.
B. The Fourth Amendment question of whether
Deputy Johnson’s affidavit supported probable
cause is not the test of his immunity.
“Qualified immunity is no immunity at all if clearly
established law can simply be defined as the right to be
free from unreasonable searches and seizures,” Sheehan,
135 S.Ct. at 1776, but this is precisely the manner by which

23
the Fifth Circuit denied Deputy Johnson’s immunity. The
Fourth Amendment question of probable cause is not the
proper measure of an officer’s immunity. Rather, whether
an officer violated the Fourth Amendment is distinct from
whether the officer is immune. Proper analysis of these
two issues entails different elements that appropriately
demand separate evaluations. Compare, Anderson, 483
U.S. at 641, 107 S.Ct. 3034; and Pierson v. Ray, 386 U.S.
547, 556-557, 87 S.Ct. 1213 (1967); with Escalera v. Lunn,
361 F.3d 737, 743 (2d Cir. 2004). In the years following
Anderson, some courts improperly merged analyses of
immunity with evaluation of the objective reasonableness
of an officer’s use of force under the Fourth Amendment,
leading this Court to invoke its authority in 2001 to correct
that erroneous practice by expressly rejecting the invalid
procedure of merging the underlying constitutional
question with the discrete immunity issue. See, Saucier
v. Katz, 533 U.S. 194, 197, 121 S.Ct. 2151, 2154 (2001).
Last year, this Court reaffirmed this long-standing
distinction when it separately analyzed probable cause
and immunity in a case in which the D.C. Circuit had
opined arrests were not supported by probable cause and
violated clearly established law. District of Columbia v.
Wesby, __ U.S. __, 138 S.Ct. 577, 582 (2018). District of
Columbia officers responded to a rowdy party inside a
house neighbors told police was vacant. Officers found
21 people inside the house who did not live there but no
resident. Partygoers claimed they were invited to a party
at the house but no one with legal authority had granted
any partygoer the right to enter the house. Officers
arrested the partiers and charged them with unlawfully
entering the house.

24
The district court and D.C. Circuit opined officers
lacked probable cause to make the arrests because
partygoers denied knowing they entered the house
without the owner’s authorization and, according to the
D.C. Circuit, this claimed excuse vitiated the necessary
culpable mental intent to commit the crime. Wesby, 138
S.Ct. at 583-84. “On the question of qualified immunity,
the [D.C. Circuit] panel majority determined that it was
‘perfectly clear’ that a person with ‘a good purpose and
bona fide belief of her right to enter’ lacks the necessary
intent for unlawful entry.” Wesby, 138 S.Ct. at 585.
This Court “granted certiorari to resolve two
questions: whether the officers had probable cause to
arrest the partygoers, and whether the officers were
entitled to qualified immunity.” Id. (emphasis added).
TheWesby decision accentuates the errors in the Winfrey
cases because the D.C. Circuit made similar errors in
analyzing probable cause that no reasonable officer could
have reasonably anticipated. Appropriately evaluated,
“[p]robable cause ‘is not a high bar,’” Wesby, 138 S.Ct. at
586 (quoting Kaley v. United States, 571 U.S. 320, 338,
134 S.Ct. 1090 (2014)). “It ‘requires only a probability or
substantial chance of criminal activity.’ [Illinois v.] Gates,
462 U.S. [213,] 243-244, n.13, [103 S.Ct. 2317 (1983)].” Id.
at 585.
Wesby demonstrates that, in weighing probable cause,
both the Fifth Circuit and D.C. Circuit improperly viewed
facts in isolation, rather than in context of all the facts,
and “mistakenly believed that [they] could dismiss outright
any circumstances that were ‘susceptible of innocent
explanation.’” Id. at 588 (quoting United States v. Arvizu,
534 U.S. 266, 277, 122 S.Ct. 744 (2002)). Both circuit courts

25
also failed to recognize “probable cause does not require
officers to rule out a suspect’s innocent explanation for
suspicious facts.” Id. The D.C. Circuit erred in its analysis
of the Fourth Amendment probable cause issue, as did
the Fifth Circuit, because both courts “should have asked
whether a reasonable officer could conclude – considering
all of the surrounding circumstances, including the
plausibility of the explanation itself – that there was a
‘substantial chance of criminal activity.’” Id. (quoting
Gates, 462 U.S. at 244, 103 S.Ct. 2317).
While the Fifth Circuit only evanescently mentioned
the information Deputy Johnson included in his affidavit,
the district court specifically analyzed both the content of
the affidavit and Winfrey’s challenges to it. After having
reported the information in his affidavit, no objective
officer could have known when Deputy Johnson requested
the warrant that a decade later the Fifth Circuit would
opine that Richard Sr.’s later statement that his cousin
aided Richard Sr. in entering Burr’s home would nullify
Richard Sr.’s earlier statement that Winfrey facilitated
the entry into Burr’s home to murder him. Those two
statements do not necessarily conflict, and Richard Sr.
only mentioned his cousin after Richard Sr. knew officers
were investigating Winfrey’s and Richard Jr.’s suspected
involvement in the crime. Most importantly, however, the
Fifth Circuit did not identify any source Deputy Johnson,
or any other reasonable officer, could have referred to
that would have informed Deputy Johnson that every
officer was obligated to view this information crucial to
establishing probable cause.
Likewise, the Fifth Circuit did not identify any
authority from which every officer knew that Deputy

26
Johnson was required to point out in his affidavit that
Richard Sr. said he stabbed and shot Burr, when the
evidence showed that Burr was only stabbed, or that the
failure to include this detail in the affidavit eliminated
probable cause. The district court’s analysis shows the
same is true of other details the Fifth Circuit opined
Deputy Johnson should have put in his warrant application.
(App.47a-49a).
Notably, the Fifth Circuit acknowledged that
none of this additional information not in the affidavit
“considered independently, would necessarily have been
fatal to the affidavit – because [Richard Sr.] could have
told Campbell anything…” Winfrey, 901 F.3d at 496.
Certainly, an objective officer could have viewed the
alleged discrepancies upon which the Fifth Circuit focused
differently than did the Fifth Circuit. Most importantly,
however, there is no way any officer could have foreseen
clearly established law in 2007 required Deputy Johnson
to weigh details as did the Fifth Circuit, when the Fifth
Circuit determined the details, on their own, did not
refute probable cause. See id. The methodology the Fifth
Circuit utilized conflicts with Wesby’s dictates, and the
Fifth Circuit procedure certainly did not provide notice
to any reasonable officer of conduct that was clearly
unlawful. As did the D.C. Circuit, the Fifth Circuit,
merely announced a conclusory opinion about probable
cause without identifying any standard or methodology
that reliably linked the evidence to the entirely subjective
opinion. This procedure is not susceptible to application
of this Court’s immunity authorities.
While the Fifth Circuit had authority to opine de novo
on probable cause, the Fifth Circuit cannot – consistent

27
with this Court’s authorities – deny immunity to Deputy
Johnson on that basis alone. The Fifth Circuit did not
identify, let alone apply, any discernible standard to show
existing case decisions in 2007 fairly warned a reasonable
officer that Deputy Johnson’s action was clearly unlawful.
Deputy Johnson’s alleged transgressions are unlike any
other case wherein this Court, or any court of appeals,
has denied immunity. Deputy Johnson did not prematurely
rush to judgment or action. He participated in the
investigation from its inception until the arrest warrant
was issued after a lengthy investigation by the Sheriff,
two Rangers, a district attorney’s investigator, and the
District Attorney. Witness interviews were recorded and
written reports documented all of the information upon
which Winfrey’s claim is based. All of this information
was provided to District Attorney Burnett, who made
the decision to direct Deputy Johnson to request the
warrant for Winfrey’s arrest. The record unequivocally
evidences – through the complete records from three
criminal trials and preliminary criminal proceedings –
that the prosecutor, criminal trial judge, and criminal
defense counsel were all aware of the information upon
which Winfrey’s claim is based, and the criminal courts
evaluated and ruled on these issues independent of any
input from Deputy Johnson. Regardless of how this Court
ultimately decides whether, or to what extent, information
not included in the affidavit should properly be analyzed
in this context, Deputy Johnson could not have reasonably
anticipated the answer in 2007.
Under Wesby, this Court could decide de novo
probable cause either way in the Winfrey case, but,
regardless of how the last court that considers probable
cause decides that Fourth Amendment question, the

28
Fifth Circuit should have properly applied this Court’s
immunity jurisprudence to uphold immunity because the
record does not establish that every reasonable officer
would have known the affidavit Deputy Johnson submitted
failed to support probable cause. Because the Fifth
Circuit method of assessing Deputy Johnson’s immunity is
insupportable under this Court’s precedent, the Court has
“discretion to correct [circuit court] errors at each step.”
Wesby, 138 S.Ct. at 589 (quoting al-Kidd, 563 U.S. at 735,
131 S.Ct. 2074 (2011)). The Winfrey opinion begs for this
Court’s discretionary review because, if this Court does
not correct the Fifth Circuit procedure, when repeated
it will “undermine the values qualified immunity seeks
to promote.” Id. (quoting al-Kidd, 563 U.S. at 735, 131
S.Ct. 2074).
“Under [this Court’s] precedents, officers are entitled
to qualified immunity under § 1983 unless (1) they violated
a federal statutory or constitutional right, and (2) the
unlawfulness of their conduct was ‘clearly established at
the time.’” Id. (quoting Reichle, 566 U.S. at 664, 132 S.Ct.
2088). “‘Clearly established’ means that, at the time of
the officer’s conduct, the law was ‘sufficiently clear’ that
every ‘reasonable office[er] would understand that what
he is doing’ is unlawful.” Id. (quoting al-Kidd, 563 U.S.
at 741, 131 S.Ct. 2074 (quoting Anderson, 483 U.S. at 640,
107 S.Ct. 3034)). “In other words, existing law must have
placed the constitutionality of the officer’s conduct ‘beyond
debate.’” Id. (quoting al-Kidd, 563 U.S. at 741, 131 S.Ct.
2074). “This demanding standard protects ‘all but the
plainly incompetent or those who knowingly violate the
law.’” Id. (quoting Malley, 475 U.S. at 341, 106 S.Ct. 1092)).

29
“To be clearly established, a legal principle must have
a sufficiently clear foundation in then-existing precedent.”
Id. “The rule must be ‘settled law,’ Hunter, 502 U.S. at 228,
112 S.Ct. 534, which means it is dictated by ‘controlling
authority’ or a ‘robust consensus of cases of persuasive
authority,’” Wesby, 138 S.Ct. at 590 (quoting al-Kidd,
563 U.S. at 741-742, 131 S.Ct. 2074 (quoting Wilson v.
Layne, 526 U.S. 603, 617, 119 S.Ct. 1692 (1999)). “The
precedent must be clear enough that every reasonable
offic[er] would interpret it to establish the particular rule
the plaintiff seeks to apply.” Id. “Otherwise, the rule is
not one that ‘every reasonable office[er]’ would know.” Id.
“[T]he ‘clearly established’ standard also requires that
the legal principle clearly prohibit the officer’s conduct
in the particular circumstances before him.” Id. “The
rule’s contours must be so well defined that it is ‘clear to
a reasonable officer that his conduct was unlawful in the
situation he confronted.’” Id. (quoting Saucier, 533 U.S.
at 197, 121 S.Ct. 2151).
“This requires a high ‘degree of specificity.’” Id.
(quoting Mullenix v. Luna, 577 U.S. __, 136 S.Ct. 305,
309 (2015) (per curiam). This Court has “repeatedly
stressed that courts must not ‘define clearly established
law at a high level of generality, since doing so avoids the
crucial question whether the office[er] acted reasonably
in the particular circumstances that he or she faced.’” Id.
(quoting Plumhoff v. Rickard, 572 U.S. __, 134 S.Ct. 2012,
2023 (2014)). “A rule is too general if the unlawfulness of
the officer’s conduct does not follow immediately from
the conclusion that [the rule] was firmly established.” Id.
(quoting Anderson, 483 U.S. at 641, 107 S.Ct. 3034). This
Court has “stressed that the ‘specificity’ of the rule is
‘especially important in the Fourth Amendment context.’”

30
Id. (quoting Mullenix, 577 U.S. at __, 136 S.Ct. at 308).
“Probable cause ‘turn[s] on the assessment of probabilities
in particular factual contexts’ and cannot be ‘reduced to
a neat set of legal rules.’” Id. (quoting Gates, 462 U.S.
at 232, 103 S.Ct. 2317). Probable cause “is ‘incapable of
precise definition or quantification into percentages.’” Id.
(quoting Pringle, 540 U.S. at 371, 124 S.Ct. 795). “Given
its imprecise nature, officers will often find it difficult to
know how the general standard of probable cause applies
in ‘the precise situation encountered.’” Id. (quoting Ziglar
v. Abbasi, 582 U.S. __, __, 137 S.Ct. 1843, 1866 (2017)).
Since settled rules are the essence of immunity, this
inherent ambiguity is the primary reason probable cause
is a poor standard for assessing an officer’s conformity
with clearly established law. This fact is prominently
highlighted in Wesby, wherein first officers opined
probable cause existed, thereafter the district and D.C.
Circuit opined probable cause was absent, and this Court
ultimately agreed with the officers’ assessment of probable
cause. Id. If probable cause was the test of immunity,
no officer could know, when he made his probable cause
assessment, the standard under which his decision would
be measured until after the last judicial authority issued
its opinion about probable cause. This procedure disserves
the purpose of immunity, assuring an officer is forewarned
when he acts that his conduct is clearly unlawful.
This Court has “stressed the need to ‘identify a case
where an officer acting under similar circumstances
…was held to have violated the Fourth Amendment.’” Id.
(quoting White v. Pauly, 580 U.S. __, __, 137 S.Ct. 548,
552 (2017) (per curiam)) (emphasis added). The court below
clearly failed to do so. The Court does not require “a case

31
directly on point,” but “existing precedent must place the
lawfulness of the particular arrest ‘beyond debate.’” Id.
(quoting al-Kidd, 563 U.S. at 741, 131 S.Ct. 2074). “[T]he
rare ‘obvious case,’ where the unlawfulness of the officer’s
conduct is sufficiently clear even though existing precedent
does not address similar circumstances” can exist, “[b]ut
‘a body of relevant case law’ is usually necessary to ‘clearly
establish’ the answer with respect to probable cause.” Id.
(quoting Brosseau, 543 U.S. at 199, 125 S.Ct. 596).
The decision in United States v. Lanier, 520 U.S. 259,
270-271, 117 S.Ct. 1219 (1997) provides insight into the rare
“obvious” case.” Although “[t]here has never been a § 1983
case accusing welfare officials of selling foster children
into slavery, it does not follow that if such a case arose,
the officials would be immune from damages [or criminal]
liability.” Id. at 271, 117 S.Ct. 1219 (internal quotations
omitted). Nothing about Deputy Johnson’s conduct
suggests the rare obvious case exception applies in his
circumstances, so the usual body of relevant case law as of
2007 is necessary to disprove his immunity. See Wesby, 138
S.Ct. at 590-591. Thus, “[e]ven assuming [Deputy Johnson]
lacked actual probable cause to arrest [Winfrey], [Deputy
Johnson is] entitled to qualified immunity [provided he]
‘reasonably but mistakenly conclude[d] that probable cause
[wa]s present.’” Wesby, 138 S.Ct. at 591 (quoting Anderson,
483 U.S. at 641, 107 S.Ct. 3034).
Like the D.C. Circuit in Wesby, the Fifth Circuit has
not “identified a single precedent – much less a controlling
case or robust consensus of cases – finding a Fourth
Amendment violation ‘under similar circumstances.’”
Wesby, 138 S.Ct. at 591. As in Wesby, the Fifth Circuit did
not base its opinion on settled law. See Wesby, 138 S.Ct. at

32
591. Settled law, demonstrated through Malley, Anderson,
Hunter, and Wesby, shows, instead, that the Fifth Circuit
erred when it denied immunity to Deputy Johnson based
on the opinion his affidavit, as the Fifth Circuit opined it
should have been written, failed to support probable cause.
“[I]n holding our law enforcement personnel to an
objective standard of behavior, [] judgment must be
tempered with reason,” Saldana v. Garza, 684 F.2d
1159, 1165 (5th Cir. 1982), and a court “cannot expect
our police officers to [possess] a legal scholar’s expertise
in constitutional law.” Id. The courts’ disagreement in
this case regarding probable cause, and its analysis,
demonstrates that reasonable minds can differ, so
immunity is appropriate. “[I]t is hard to imagine that
any immunity threshold should hold law enforcement to a
higher standard than judges when it comes to interpreting
the law.” Melton v. Phillips, 875 F.3d 256, 268 (5th Cir.
2017) (en banc) (Gregg Costa, Circuit Judge concurring in
the judgment).This Court has explained that “[i]f judges
thus disagree on a constitutional question, it is unfair to
subject police to money damages for picking the losing
side of the controversy.” Wilson v. Layne, 526 U.S. 603,
618, 119 S.Ct. 1692 (1999); Compare Stanton v. Sims, 571
U.S. 3, 134 S.Ct. 3 (2013). The record indisputably proves
that lack of probable cause is not “beyond dispute,” so
Deputy Johnson is immune. The Fifth Circuit erred in
opining otherwise, and Deputy Johnson petitions this
Court to exercise its discretion to correct the Fifth Circuit
judgment.

33
CONCLUSION
This Court should correctly decide the important
federal issues the Fifth Circuit decided in a way that
conflicts with relevant decisions of this Court and other
circuit courts, that so far departs from the accepted
and usual course of judicial proceedings as to call for
an exercise of this Court’s supervisory power. Deputy
Johnson asks the Court to grant Petitioner’s Petition for
a Writ of Certiorari, correct the Fifth Circuit decision,
and render judgment in Petitioner’s favor.
			Respectfully submitted,
William S. Helfand
Counsel of Record
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
(713) 659-6767
bill.helfand@lewisbrisbois.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED MARCH 26, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20022
MEGAN WINFREY,
Plaintiff-Appellant,
v.
LENARD JOHNSON, FORMER SAN JACINTO
COUNTY SHERIFF’S DEPUTY CHIEF,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:14-CV-448.
March 26, 2019, Filed
Before JONES, HAYNES, and OLDHAM, Circuit
Judges.
EDITH H. JONES, Circuit Judge:*
* Pursuant to 5th CIr. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th CIr. R. 47.5.4.

2a
Appendix A
After her murder conviction was overturned, Megan
Winfrey sought damages under § 1983 and has appealed
the district court’s grant of partial summary judgment
dismissing her Fourth and Fourteenth Amendment
claims. Because a panel of this court has already
addressed the same issues in her brother’s case, this panel
is bound by precedent to reverse and remand on Winfrey’s
Fourth Amendment claim. The district court’s dismissal
of Winfrey’s Fourteenth Amendment claims was proper,
however, and this court declines to address as untimely her
arguments concerning her expert witness. Accordingly,
the district court’s partial summary judgment order is
REVERSED in part and AFFIRMED in part, and the
case is REMANDED.
I. BACKGROUND
Megan Winfrey (“Megan”) was convicted of capital
murder but her conviction was overturned on appeal
after six years imprisonment. Winfrey v. Texas, 393
S.W.3d 763, 774 (Tex. Crim. App. 2013) (“Winfrey I”).
Lenard Johnson, the Appellant, is a former deputy at
the San Jacinto County Sheriff’s Office who drafted and
signed the arrest warrants for Megan, her father Richard
Winfrey, Sr. (“Senior”), and her brother Richard Winfrey,
Jr. (“Junior”). He also took witness testimony from
David Campbell, a jailhouse informant who implicated
the Winfreys in the murder of school janitor Murray
Wayne Burr. The facts underlying this appeal need not
be repeated as they have been set forth in Junior’s case.
See Winfrey v. Rogers, 901 F.3d 483, 488-90 (5th Cir. 2018)
(“Winfrey II”).

3a
Appendix A
This appeal arises from the district court’s opinion
disposing of both siblings’ cases. Megan’s Fourth
Amendment claim is nearly identical to that brought by
Junior, with a few factual distinctions. First, while Junior
was tried and acquitted after sitting in jail for two years,
Megan was convicted by a jury and exonerated by the
Texas Court of Criminal Appeals. Second, pertinent to her
arrest warrant, deputies collected additional statements
about Megan from teachers, including a statement by
a teacher that Megan walked up to Burr in the school
hallway, put her arm in his, and asked him when he was
going to spend some money on her and take her out; a
statement that after a fight with him Megan said she
wished someone should “beat the shit” out of Burr; and
another teacher’s statement that Megan had “assaulted
her in some way” and threatened her. Johnson contends
these statements add support to his urging of probable
cause to arrest her. Third, the arrest warrant mistakenly
indicated that the bloodhound drop-trail scent used
Junior’s scent, when it in fact used the scent of Winfrey’s
boyfriend Chris Hammond. But there was no such error
as to the dogs’ alert on Megan’s scent.
Winfrey was arrested on or about March 15, 2007
and detained pending trial. She was reindicted for capital
murder and conspiracy to commit murder on December 13,
2007, tried in October 2008, convicted on October 9, 2008,
and sentenced to life imprisonment. On February 27, 2013,
the Texas Court of Criminal Appeals found the evidence
legally insufficient to support Winfrey’s conviction and
rendered a judgment of acquittal for each offense. Winfrey
I, 393 S.W.3d at 774.

4a
Appendix A
Winfrey filed a § 1983 lawsuit, originally alleging
that Johnson, Rogers, San Jacinto County’s then-Sheriff
Clark, and Pikett violated her constitutional rights
by using fabricated evidence in connection with the
investigation, arrest and prosecution. She also pursued
state law malicious prosecution claims against Johnson,
Rogers, and Pikett. After a collection of dismissals,
substitutions, settlements, and summary judgments,
including dismissals under the Texas Tort Claims Act
(“TTCA”) or due to immunity, only Johnson remains as
a defendant, and the district court granted summary
judgment for Johnson on all claims. At a hearing about
expert reports, the district court also sua sponte decided
against allowing one of Winfrey’s experts, Dr. Marshall,
from testifying.
Winfrey presents four arguments on appeal. First,
she argues that her Fourth Amendment claim that
Johnson knowingly or recklessly made false statements
in his arrest-warrant affidavit should go to trial. Second,
she asserts a Fourteenth Amendment claim of malicious
prosecution under procedural due process. Third, she
presents a due process claim that Johnson fabricated
Campbell’s trial testimony, violating her right to a fair
trial. Fourth, Winfrey argues that the district court
abused its discretion in excluding her damages expert
from testifying at trial.
II. STANDARD OF REVIEW
This court reviews the district court’s grant of
summary judgment de novo. Brewer v. Hayne, 860 F.3d

5a
Appendix A
819, 822 (5th Cir. 2017). Summary judgment is appropriate
when the movant is entitled to judgment as a matter of
law and there is no genuine dispute of material fact. Id.
“To survive summary judgment, the non-movant must
supply evidence ‘such that a reasonable jury could return a
verdict for the nonmoving party.’” Id. (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91
L. Ed. 2d 202 (1986)). The court must draw all reasonable
inferences in the non-movant’s favor and view the evidence
in the light most favorable to the non-movant. Id.
“A qualified immunity defense alters the usual
summary judgment burden of proof . . . Once an official
pleads the defense, the burden then shifts to the plaintiff,
who must rebut the defense by establishing a genuine
fact issue as to whether the official’s allegedly wrongful
conduct violated clearly established law. The plaintiff
bears the burden of negating qualified immunity, but all
inferences are drawn in his favor.” Brown v. Callahan,
623 F.3d 249, 253 (5th Cir. 2010) (quoting Michalik v.
Hermann, 422 F.3d 252, 262 (5th Cir.2005)). Finally,
this court reviews the district court’s probable-cause
determination de novo. United States v. Lopez-Moreno,
420 F.3d 420, 430 (5th Cir. 2005).
III. DISCUSSION
1. Fourth Amendment
Megan argues that Johnson’s conduct violated her
Fourth Amendment right to be free from arrest without
a good-faith showing of probable cause and his duty not

6a
Appendix A
to knowingly, intentionally, or recklessly make false
statements in an arrest warrant affidavit. The substance
of her claims is that Johnson’s arrest-warrant affidavit
contained material misstatements and, even if corrected,
lacked probable cause. Megan relies on this court’s
decision in Winfrey II.1 Johnson contends that he is
entitled to qualified immunity, Megan never actually pled
a Fourth Amendment violation arising from the arrest
warrant, the statute of limitations has run on Megan’s
claim, and independent intermediaries blocked any
causal chain running from the arrest warrant to Megan’s
incarceration. 2
In Winfrey II, the panel analyzed the affidavits for
Megan and Senior in making its legal determinations.
Winfrey II, 901 F.3d at 489 n.1. It held that the affidavits
contained material misrepresentations and omissions, 3
1. Because of the timing of their briefs, the parties cite
Winfrey v. Rogers, 882 F.3d 187 (5th Cir. 2018), but that decision
was withdrawn and superseded on denial of rehearing by Winfrey
v. Rogers, 901 F.3d 483 (5th Cir. 2018). The opinions are identical
in substance and outcome except for the analysis of qualified
immunity.
2. Megan’s lawsuit is timely. Since the Winfrey II panel
concluded that Megan’s § 1983 claim more closely resembles the tort
of malicious prosecution, focused as it is on the wrongful institution
of legal process, see Winfrey II, 901 F.3d at 492-93, the statute of
limitations on that claim did not begin to run until “the prosecution
ends in the plaintiff’s favor.” Castellano v. Fragozo, 352 F.3d 939
(5th Cir. 2003) (en banc). In Megan’s case, that would be February
27, 2013, the date her conviction was overturned.

3. The court found that “Junior provides evidence that
Johnson made false statements in his affidavit by (1) omitting

7a
Appendix A
and that a “corrected” affidavit would not have satisfied
the probable-cause requirement. Id. at 496. Thus, the
panel vacated the district court’s judgment and remanded
for trial “on the factual issue of whether Johnson acted
recklessly, knowingly, or intentionally by omitting and
misrepresenting material facts in his affidavit when
seeking an arrest warrant for Junior.” Id. at 488. Because
the panel in Winfrey II rejected most of the same
objections Johnson now raises, Johnson is precluded from
relitigating these issues. Johnson offers only two new
reasons why this panel is not bound by a panel decision
interpreting the sufficiency of the same warrant, but
those, too, are unavailing.
First, Johnson contends that additional facts here
support probable cause as to Megan. He argues that the
mistaken drop-trail scent — which identified the scent as
Junior’s when it was in fact that of Megan’s boyfriend —
was not a mistake as to Megan. But the irrelevance of this
misstatement does not add probable cause against Megan.
Additionally, he argues that the warrant affidavit included
statements from teachers about Megan, her relationship
with Burr, and a possible propensity for violence. But, as
the district court noted, these statements, eyebrow-raising
Campbell’s statements that were contradicted by the physical
evidence; (2) misstating that Pikett’s drop-trail from Burr’s
house to the Winfrey house used Junior’s scent, when the droptrail actually used Hammond’s scent; and (3) omitting Campbell’s
inconsistencies between his statements, that is, between
Campbell’s first statement—which was related in the affidavit—
that said that Megan and Junior helped Senior to murder Burr
and Campbell’s inconsistent later statement that Senior’s cousin
was the accomplice.” Winfrey II, 901 F.3d at 494.

8a
Appendix A
though they might be, do not link Megan to murder. When
weighed against the misstatements detailed in fn. 2 above,
these factual distinctions do not detract from the Winfrey
II panel’s conclusion that “a reasonable magistrate would
not have issued a warrant on the basis of this corrected
affidavit, because the addition of the omitted material
facts would have dissuaded the judge from issuing the
warrant.” Id. at 496.
Second, Johnson contends that the independent
intermediary doctrine applies here because, unlike in
Winfrey II, and indeed noted by that panel, there was an
additional proceeding before a state judge which Johnson
argues acted as an independent intermediary. Under the
independent-intermediary doctrine, “‘if facts supporting
an arrest are placed before an independent intermediary
such as a magistrate or grand jury, the intermediary’s
decision breaks the chain of causation’ for the Fourth
Amendment violation.” Jennings v. Patton, 644 F.3d 297,
300-01 (5th Cir. 2011) (quoting Cuadra v. Hous. Indep.
Sch. Dist., 626 F.3d 808, 813 (5th Cir. 2010)). But this
doctrine only applies “where all the facts are presented to
the grand jury, or other independent intermediary where
the malicious motive of the law enforcement officials does
not lead them to withhold any relevant information from
the independent intermediary.” Cuadra, 626 F.3d at 813.
The panel in Winfrey II rejected Johnson’s independentintermediary argument as to the grand jury because it
was “unclear” whether Johnson presented all the facts to
the grand jury. Winfrey II, 901 F.3d at 497.

9a
Appendix A
Johnson attempts to distinguish Winfrey II because
here, unlike there, a state judge also determined there
was probable cause to arrest Megan. That is a fair
point because the Winfrey II panel itself recognized
the distinction and distinguished Junior’s case — where
“[n]one of these hearings addressed . . . whether there
was probable cause to arrest Junior” — from Megan’s
case, where there was at least one hearing where the
judge “determined that there was probable cause to
arrest Megan.” Id. But the exception to the independentintermediary doctrine applies with equal force because,
under Winfrey II, it is Johnson’s burden to prove the
omitted material information was presented to the judge.
He has not done so. And again, since the panel in Winfrey
II analyzed the very same affidavit, this court is bound
by its rejection of the independent-intermediary doctrine.
After Winfrey II, we have no leeway to conclude otherwise.
The only remaining question is the extent of
Megan’s potential damages. Based on Winfrey II, the
misstatements in Johnson’s arrest-warrant affidavit
meant it lacked probable cause. The Supreme Court has
made clear that pretrial seizures, even if they follow legal
process, can violate the Fourth Amendment if the initial
seizure occurred without probable cause and nothing
later remedied the lack of probable cause. See Manuel
v. City of Joliet, 137 S. Ct. at 918-19 (“If the complaint is
that a form of legal process resulted in pretrial detention
unsupported by probable cause, then the right allegedly
infringed lies in the Fourth Amendment.”). That is the
case here — the material misstatements and omissions
in the arrest-warrant affidavit led to Winfrey’s unlawful
arrest and pretrial detainment.

10a
Appendix A
But that is not the end of this story, because Megan
was reindicted and tried on evidence obtained after
further investigation of her case. Megan does not
contradict the record evidence that Deputy Johnson’s
involvement in her investigation ceased following the
issuance of the arrest warrant in February 2007, at
which point the investigation was taken over by the
Texas Rangers and the District Attorney’s investigator,
James Kirk. The further investigation included follow-up
interviews with Campbell and other witnesses. At trial,
new and potentially incriminating testimony about an
alibi attempt and evidence tampering were offered by
her ex-husband Hammond and her boyfriend at the time
of the killing, Jason King. See Winfrey I, 393 S.W.3d at
766. Consequently, at the time of reindictment, the initial
lack of probable cause ceased being the cause of Winfrey’s
detention and damages ceased accruing from Johnson’s
Fourth Amendment violation.
Additionally, although the Texas Court of Criminal
Appeals ultimately reversed Winfrey’s conviction,
that court’s painstaking review of the totality of the
circumstantial evidence underlying her conviction
undermines Megan’s argument that the initial lack of
probable cause supporting her arrest persisted through
reindictment, trial, and incarceration, and continued
to taint the case against her. In concluding that the
evidence was insufficient to prove Megan’s guilt beyond a
reasonable doubt, the court nowhere suggested that there
was no probable cause to indict or try her for murder.
In fact, the majority found that the evidence did indeed
raise a suspicion of her guilt. The court’s analysis further

11a
Appendix A
supports the conclusion that the initial lack of probable
cause ceased with Megan’s reindictment and so did the
damages.
2. Fourteenth Amendment
In addition to her Fourth Amendment claims, Megan
presses two claims under the Fourteenth Amendment: a
malicious prosecution claim and a claim resulting from the
Johnson’s alleged use of fabricated evidence at trial. The
malicious prosecution argument fails because Megan has
failed to show that Johnson violated clearly established
law. The fabrication of evidence argument fails because
no reasonable jury could conclude on the facts before us
that Johnson fabricated evidence.
a.

Malicious Prosecution

Megan argues that because her liberty was constrained
beyond her initial arrest, and because Texas law provides
an insufficient state tort law remedy, she may press
a § 1983 federal malicious prosecution claim under
procedural due process. She acknowledges, however,
that the Supreme Court did not approve a substantive
due process claim arising from malicious prosecution,
Albright v. Oliver, 510 U.S. 266, 114 S. Ct. 807, 127 L. Ed.
2d 114 (1994), and no subsequent decision of that Court
or this court has rendered such a claim cognizable, much
less “clearly established.” See, e.g., Castellano v. Fragozo,
352 F.3d 939 (5th Cir. 2003) (en banc). Even if this court
accepted Megan’s invitation to break new legal ground,
which we do not, Johnson would be entitled to qualified

12a
Appendix A
immunity. The district court’s dismissal of the malicious
prosecution claim was correct.
b.

Fabrication of Evidence

Megan’s second Fourteenth Amendment claim
concerns Johnson’s interaction with jailhouse informant
David Campbell. Megan contends that a reasonable jury
could decide Johnson fabricated Campbell’s testimony
because Campbell’s pre-arrest inter views yielded
conflicting facts at odds with the forensic evidence;
Campbell himself believed that Johnson was trying to
“stage” something against Megan; and Campbell testified
to his suspicions at trial. These facts do not support a claim
of fabricated evidence.
All of the Supreme Court and other cases on which
Megan relies deal with manufactured evidence or perjured
witnesses. In Mooney, for example, the court found a due
process violation where there was a “deliberate deception
of court and jury by the presentation of testimony known
to be perjured” by prosecutors. Mooney v. Holohan, 294
U.S. 103, 112, 55 S. Ct. 340, 342, 79 L. Ed. 791 (1935); see
also Pyle v. Kansas, 317 U.S. 213, 63 S. Ct. 177, 87 L. Ed.
214 (1942). Brown v. Mississippi, 297 U.S. 278, 286, 56 S.
Ct. 461, 465, 80 L. Ed. 682 (1936) involved the coercion of
confessions by use of physical violence. Napue v. People
of State of Ill., 360 U.S. 264, 270, 79 S. Ct. 1173, 1177, 3
L. Ed. 2d 1217 (1959) involved the use of false testimony
by a witness to curry favor with a prosecutor who might
provide favors to the witness. In Miller v. Pate, 386 U.S.
1, 6, 87 S. Ct. 785, 788, 17 L. Ed. 2d 690 (1967), “[t]he

13a
Appendix A
prosecution deliberately misrepresented the truth” by
“consistent and repeated misrepresentation” that shorts
stained with paint were actually stained with blood. The
lone precedential Fifth Circuit case Megan cites, Boyd v.
Driver, 579 F.3d 513 (5th Cir. 2009) (per curiam), involved
the claim that prison employees gave perjured testimony
at a criminal trial and destroyed and tampered with video
evidence. These cases all involve a motivated person who
undertook to create or destroy evidence presented at trial
in support of convictions.
The facts of this case are quite different. Johnson
took statements from Campbell on two occasions before
he swore out the warrant affidavit. Megan has no basis for
asserting that Johnson had any involvement in Campbell’s
testimony at trial; his connection to the case terminated
with her arrest and Johnson did not even testify at her trial.
The prosecutors alone were responsible for Campbell’s
trial testimony. Moreover, Campbell testified according
to his own free will, never admitted any falsehoods in his
trial testimony, and indeed truthfully related his own
misgivings about any improper influence Johnson may
have been asserting. Thus, Megan offers no evidence that
Johnson inappropriately influenced Campbell’s testimony.
According to Megan, the most damning piece of evidence is
Campbell’s suggestion that Johnson was “trying to make a
story,” but this opinion criticizes Johnson’s conduct prior to
the arrest, in Johnson’s first interview with Campbell, and
there is no indication that Johnson influenced Campbell’s
later testimony at trial. Additionally, the mere fact that
Campbell presented one of the two versions that he had
previously related regarding Senior’s story — that Megan

14a
Appendix A
and Junior, not the cousins, were present with Senior in
the house when Burr was murdered — would not allow
a reasonable jury to conclude that Johnson fabricated
Campbell’s testimony. There is thus no genuine issue of
material fact supporting Johnson’s fabrication of evidence.
3. Exclusion of Damages Expert
Winfrey’s final claim is that the district court abused
its discretion by sua sponte excluding her damages expert
in violation of the Federal Rules of Evidence. Johnson
asserts that because none of the orders from which
Megan has appealed involved the expert, and since this
case did not go to trial, the district court’s statements
were merely an “interlocutory statement of opinion.”
This court is inclined to agree. Megan’s arguments are
largely a disagreement with the district court about how
to apply federal evidentiary rules. Moreover, the district
court has wide discretion in such cases: “with respect
to expert testimony offered in the summary judgment
context, the trial court has broad discretion to rule on the
admissibility of the expert’s evidence and its ruling must
be sustained unless manifestly erroneous.” Hathaway
v. Bazany, 507 F.3d 312, 317 (5th Cir. 2007) (citation and
internal quotation marks omitted). In any event, there
is no formal order to review, and based on this opinion,
any prognostication by this court on expert evidence that
Megan may offer in the future is premature.

15a
Appendix A
CONCLUSION
The district court’s judgment is REVERSED
as to the Fourth Amendment claim, AFFIRMED as
to the Fourteenth Amendment claims, and the case
is REMANDED for further proceedings consistent
herewith.

16a
AppendixWITH
B
APPENDIX B — OPINION
APPENDIX OF
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS, FILED
OCTOBER 4, 2016
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
Civil Action H-10-1896
H-14-448
RICHARD WINFREY, JUNIOR, et al.,
Plaintiffs,
versus
KEITH PIKETT, et al.,
Defendants.
October 4, 2016, Decided
October 4, 2016, Filed, Entered
OPINION ON PARTIAL SUMMARY JUDGMENT
I.

Introduction.

A father, his son, and his daughter were searched,
arrested, and tried for murder. All three were, eventually,
acquitted. The son and daughter sue the investigators
and the counties that employ them for violating their
constitutional rights. The son will take nothing. The
daughter will take nothing on all but one of her claims.

17a
Appendix B
2. Background.
In August of 2004, Murray Wayne Burr was found
dead in his home in Texas’s San Jacinto County. Blood
spatter showed that the murder started in his living room,
and the body was dragged to the bedroom. The County
Sheriff Lacy Rogers and Deputy Sheriff Lenard Johnson
led the investigation. Texas Rangers Grover Huff and
Ronald Duff assisted.
Ultimately, the investigators concluded that Richard
Winfrey, Senior, and his children Richard Winfrey, Junior,
and Megan Winfrey killed Burr.
A.

The Investigation Begins.

Burr had worked as a janitor at Coldspring High
School where Megan and Junior were students. Some of
the initial evidence indicated that they had socialized.
Burr’s neighbors said that Megan and Junior asked
Burr to let them move in with him, but he said no. One
teacher at the school saw Megan put her arm in Burr’s
and ask if he was going to take her out and spend some of
the money he had hidden in his house on her.
A second teacher said she saw a verbal fight between
Megan and Burr after which Megan muttered, “Someone
should beat the shit out of him.” A third teacher told of a
time Megan acted violently towards her.

18a
Appendix B
B. Scent Evidence Gathered.
Keith Pikett — a deputy from a nearby agency —
assisted the investigation by running scent-pad line-ups.
The line-up uses bloodhounds to compare a suspect’s scent
to the scents found on a victim’s clothes. On August 24,
2004, Pikett ran the line-up using bloodhounds and scents
from four suspects — Megan, Junior, Chris Hammond,
and Adam Szarf. The bloodhounds alerted only on Megan’s
and Junior’s scents.
The bloodhounds also traced a scent by following
a scent trail, a method often used to find lost people or
fleeing criminals. The investigators gave the hounds the
scent at Burr’s house. The hounds located the scent and
followed it to the Winfrey house. The officers thought the
scent used was Junior’s; the scent actually came from
Chris Hammond, Megan’s boyfriend.
C.

Blood not a match.

In September of 2004, the investigators received a
report from the Houston Crime Laboratory. A lot of blood
was found at Burr’s house. The report compared the DNA
of the blood found in Burr’s house with the suspects’ DNA.
The report concluded that neither Megan’s nor Junior’s
blood was at the scene. The report also concluded that all
of the blood may have come from Burr but it could not
conclude his blood was the only blood at the scene.

19a
Appendix B
D.

Megan’s hair not a match.

The investigators found hairs on and near Burr’s body
that did not belong to Burr. In January of 2005, Rogers
signed an affidavit and received a search warrant for
Megan’s hair.
In the affidavit, he included (a) the neighbor’s
statement that Megan socialized with Burr; (b) the
teacher’s statements; (c) the results of the line-up; (d) the
partially erroneous results of the scent trail. He did not
include that the blood at the scene may have come from
someone other than Burr, Megan, or Junior. Megan’s hair
was not a match.
E. An Informant Comes Forward.
The investigation stalled for over a year. Until then,
Senior had not been a suspect. David Campbell changed
that.
Some time after Burr’s murder, Senior was imprisoned
on an unrelated matter. He was housed with Campbell.
Campbell told a warden that he confessed his involvement
in a murder in San Jacinto County. The warden contacted
Johnson.
Johnson met with Campbell and wrote a summary
of his statement. According to the report, Senior told
Campbell that he committed a murder in San Jacinto
County in zoos. Senior also told Campbell that: (a) Megan
and Junior played across the street from Burr’s house; (b)

20a
Appendix B
one of Burr’s neighbors told Senior that Burr had touched
one of Senior’s children; (c) Megan and Junior helped
Senior get into Burr’s house; (d) Senior severely beat Burr
and cut his neck; (e) Senior cut off Burr’s genitals and
placed them in Burr’s mouth; and (f) Megan and Junior
were present the whole time. Johnson told Campbell that
he would return with Rogers for more information.
Rogers and Johnson returned to question him. They
videotaped the interview. Campbell elaborated on what
he originally told Johnson. This time, Campbell added
that (a) a cousin entered with Senior; (b) Burr was in the
living room; (c) Burr was shot as well as stabbed; (d) Senior
stole two guns (a pistol and a .3030 rifle) from Burr; and
(e) Senior hid the guns and a knife in a hollow on Winfrey
property. Those facts are missing from Johnson’s report
about the first interview.
After the interview, Johnson learned from one of
Burr’s relatives that two guns were missing from Burr’s
house after the murder. The relative said the missing guns
were a shotgun and a .22 rifle, not a pistol and a .3030 rifle.
The investigators also found a hollow matching
Campbell’s description of where Senior hid the guns and
knife but did not find any weapons in the hollow.
Finally, Pikett ran a line-up using Senior’s scent.
Senior’s scent matched the scent on Burr’s clothes.

21a
Appendix B
F.

Junior’s and Senior’s hair not a match.

On August 23, 2006, Johnson signed two affidavits to
obtain search warrants for Junior’s and Senior’s hair. He
wanted to compare their hairs against the hair found at
the scene.
Both aff idavits omitted some of the evidence
favorable to Junior and Senior. Johnson excluded: (a) the
inconsistencies between Campbell’s two interviews; (b) the
inconsistencies between Campbell’s statements and the
other evidence; (c) that Junior’s blood and Megan’s blood
was not found at the scene; and (d) that the hair found at
the scene did not match Burr or Megan.
Junior’s and Senior’s hairs did not match the hair
found at the crime scene.
G. Winfreys Arrested and Eventually Acquitted.
On February 2, 2007, Johnson signed affidavits for
arrest warrants for Megan, Junior, and Senior. The
substance of Johnson’s affidavits for the arrest warrants
is identical to Johnson’s affidavits for Junior’s and Senior’s
search warrants.
Johnson’s arrest affidavits contained the same errors
as the search affidavits. There was an additional omission:
the hairs recovered at the crime scene did not belong to
Junior, Megan, Senior, or Burr.

22a
Appendix B
In October of 2008, Megan was convicted. On June
12, 2009, Junior was acquitted. On February 27, 2013,
Megan’s conviction was overturned.
H. Allegations that Campbell’s Interview was
Staged.
Campbell testified at Megan’s trial. He was asked
about letters he sent Senior’s sister, Vicki Haynes. While
in prison, Campbell received a letter from Haynes. She
had learned that he was going to be a witness. Campbell
was worried because Haynes knew where his family lived;
he feared retribution. Campbell wrote back saying that
the first interview, by Johnson, was “staged.” At trial,
Campbell reaffirmed this and said that Johnson tried to
make something up. As a result, Campbell asked to speak
to someone with more authority — Rogers.
Campbell never explains what Johnson tried to add
or in what way the interview was “staged.” Johnson’s
summary of the interview is consistent with the content
of both the second interview and Campbell’s testimony at
trial. The video shows that Campbell was not under duress
or coached during the second interview.
3. Case History.
Senior, Megan, and Junior sued every investigator;
most of the claims have been resolved.
In Junior’s case, the court granted summary judgment
to the defendants. The United States Court of Appeals

23a
Appendix B
reversed the judgments for Johnson, Rogers, and Pikett.
Pikett was dismissed by agreement of the parties.
Junior’s claims against Rogers and Johnson pend.
Megan’s claims against Rogers, Johnson, Pikett, and San
Jacinto County pend.
Junior will take nothing. Megan will take nothing
from Rogers, Johnson, and the County. Megan’s claims
against Pikett survive.
4. Mandate.
The court of appeals held that on the facts then
discovered, (a) Junior’s claims against Pikett for
fabrication of evidence could not be denied as a matter
of law; and (b) Junior had made a threshold showing
of objective unreasonableness in the preparation of the
search and arrest warrant.
Megan and Junior attempt to use the court of appeals’s
decision. The court conducted further discover; the record
has changed. The determination of whether Megan’s and
Junior’s claims can be decided as a matter of law will be
based on the facts now in evidence.
5. Limitations.
Megan and Junior sue Johnson and Rogers for
searching and imprisoning them without due process and
fabricating Campbell’s testimony. Megan also sues Pikett
for manufacturing the scent-pad line-ups. These are
claims for damages for violations of constitutional rights.

24a
Appendix B
Federal law authorizes some actions that stem from
violations of constitutional rights. State law determines
how long a person may wait before suing.1 Under Texas
law, a person must sue within two years of a violation.
Accrual is determined by federal law. 2 The limitations
period begins when the injury is complete, the plaintiff
knows it, and knows it’s cause.
A.

Illegal Searches.

Megan and Junior seek damages for unreasonable
searches — the subpoenas for their hair. The limitations
period began when the search was complete because the
Winfreys knew who searched them.
They say that the limitations period did not begin until
they were acquitted because challenging the searches meant
challenging their convictions. A claim for damages based on
an illegal search does not imply unlawful imprisonment.3
Here, for example, the searches did not produce evidence
against Megan or Junior. Therefore the searches did not
produce evidence that supported their imprisonment.
Megan was searched in 2005; her claim expired in
2007. She did not sue until May 26, 2014. Her claims for
unreasonable search are untimely.
1. Owens v. Okure, 488 U.S. 235, 239, 109 S. Ct. 573, 102 L.
Ed. 2d 594 (1989).
2. Wallace v. Kato, 549 U.S. 384, 388, 127 S. Ct. 1091, 166 L.
Ed. 2d 973 (2007).
3. Heck v. Humphrey, 512 U.S. 477, 487 n.7, 114 S. Ct. 2364,
129 L. Ed. 2d 383 (1994).

25a
Appendix B
Junior was searched in 2006; his claim expired in
2008. He did not sue until May 26, 2010. His claims for
unreasonable search are untimely.
B. Illegal Arrests and Manufacture of Evidence.
Civil claims that challenge imprisonment can be
brought only once the accused has been acquitted. 4
Concerns for finality and consistency cannot abide the use
of civil suits to attack convictions collaterally.
Megan and Junior say that their arrests were not
supported by probable cause and that the evidence used
against them was manufactured. The defendants say that
the limitations period began once Megan and Junior were
held pursuant to legal process.
The Winfrey’s claims are not for detention without
legal process;5 rather, they are for wrongful institution
of legal process. Claims about probable cause and guilt
cannot be brought until the accused is acquitted.6
On June 12, 2009, a jury acquitted Junior. Less than
a year later, he sued. He brought his claims for arrest
without probable cause and the manufacture of evidence
within the limitations period.

4. Id. at 486-87.
5. Wallace, 549 U.S. at 389.
6. Id. at 484.

26a
Appendix B
On February 27, 2013, the Texas Court of Criminal
Appeals reversed Megan’s conviction. Less than a year
later, she sued. She brought her claims for arrest without
probable cause and the manufacture of evidence within
the limitations period.
7.

Megan and Rogers.

Megan seeks damages from Rogers because he (a)
wrote a misleading affidavit for a search warrant and (b)
coerced Campbell’s testimony. Though her claim for the
search must be dismissed as brought after the limitations
period, the court still considers its merits.
A.

Misleading Affidavit to Search.

To recover, Megan must show that Rogers (a) violated
her rights and (b) was not protected by qualified immunity.
The law requires that Rogers’s affidavit include enough
facts to enable the magistrate to make an independent
evaluation that there was probable cause to search
Megan.7 Rogers violated Megan’s Fourth Amendment
rights if he recklessly included false information or
excluded important information from his affidavit.
Even if Rogers violated Megan’s rights, he is protected
by qualified immunity if the search was objectively

7. Franks v. Delaware, 438 U.S. 154, 165, 98 S. Ct. 2674, 57
L. Ed. 2d 667 (1978).

27a
Appendix B
reasonable. 8 Rogers’s search was objectively reasonable if
supported by probable cause.9 Thus, Megan must show (a)
Rogers’s recklessness in writing a misleading affidavit and
(b) that a reasonable magistrate, reviewing a corrected
affidavit, would not have found probable cause.
A reasonable magistrate would find probable cause in
a corrected affidavit if it contained enough facts to justify
a belief that Megan murdered Burr. The belief must be
more than a suspicion but far less than a preponderance
of the evidence. Though a corrected affidavit must include
favorable evidence, once a reasonably credible source
comes forward, the investigators do not have an obligation
to investigate further.10
The court now examines Megan’s evidence that her
rights were violated and compares Rogers’s affidavit with
a corrected affidavit to determine whether a reasonable
magistrate could have found probable cause.
(1) Claimed Rights Violations.
Megan says that Rogers violated her Fourth
Amendment rights by recklessly (a) including the evidence
from the scent-pad line-up, (b) including the partially
erroneous scent trail, and (c) excluding the favorable DNA
evidence.
8. Malley v. Briggs, 475 U.S. 335, 344-45, 106 S. Ct. 1092, 89
L. Ed. 2d 271 (1986).
9. See U.S. v. Leon, 468 U.S. 897, 922-23, 104 S. Ct. 3405, 82 L.
Ed. 2d 677 (1984); U.S. v. Perez, 484 F.3d 735, 743 (5th Cir. 2007).
10. Woods v. City of Chi., 234 F.3d 979, 997 (7th Cir. 2000).

28a
Appendix B
(a). Inclusion of Line-Up.
Megan says that Rogers recklessly included the
results of Pikett’s line-up in his affidavit.
Even if Pikett’s line-up is junk science that has no
place in criminal investigations, Rogers did not know
that when he signed the affidavit. Pikett was a police
officer with a nearby agency. He worked with the Federal
Bureau of Investigations. At least one Texas court had
found testimony by Pikett about the results of a lineup admissible.11 No fact suggests that Rogers erred in
including Pikett’s results.
(b). Misidentification of the Scent Used on
the Scent Trail.
Huff intended to run the scent trail from Burr’s
house with Junior’s scent; he accidentally used Chris
Hammond’s. Assuming that Huff told Rogers when
he discovered the error, Rogers’s false statement that
Junior’s scent was used was reckless but not important.
Both Hammond and Junior are affiliated with Megan.
Junior is her brother; Hammond was her boyfriend. Had
the error been remedied, the value of the evidence would
not have changed.
Rogers’s error about whose scent was used was
reckless but not important.
11. Winston v. State, 78 S.W. 3d 522, 529 (TexApp.—Houston
[14th Dist.] 2002, pet. ref’d).

29a
Appendix B
(c). Exclusion of Favorable DNA Evidence.
Rogers recklessly excluded that Megan did not
contribute to the blood in Burr’s house. Rogers knew this
information; the Lab sent him the report.
That Megan’s blood did not match the blood at the
scene was of some importance. Burr’s murder was
violent. The killer could have been cut and bled during the
struggle. If Megan killed Burr and the killer bled during
the murder, Megan’s blood would have matched the blood
at the scene. The DNA evidence decreases the likelihood
that Megan killed Burr. Rogers recklessly excluded this
evidence, violating Megan’s Fourth Amendment rights.
(2). Rogers not Protected by Qualified Immunity.
Rogers was not protected by qualified immunity
because there was not probable cause to search Megan.
The investigators had evidence that (a) Megan and Junior
wanted to move in with Burr, but he said no; (b) Megan
was flirtatious but also fought with Burr; (c) she thought he
had money in his house; (d) she was violent towards other
school employees;12 (e) her scent was on his clothes;13 and
(f) her boyfriend traveled from Burr’s house to her house.

12. Propensity evidence may be used in probable cause
determinations. Federal Rules of Evidence 1001(d)(3).
13. The court evaluates probable cause at the time of the search
and does not consider later evidence questioning the validity of
Pikett’s methods.

30a
Appendix B
This evidence supported a reasonable belief that there
was a relationship between Megan and Burr and that
she was at his house sometime before the murder. There
was no evidence linking her to the murder. A trier of fact
could conclude that a reasonable magistrate reviewing a
corrected affidavit could not have found probable cause
to search Megan.
Megan raises a fact issue about whether Rogers was
protected by qualified immunity, but her claim is barred
by limitations. Megan will take nothing from Rogers on
this claim.
B. Coercion of Campbell.
Megan says that Rogers and Johnson coerced
Campbell to give false information. There are no facts
to support a claim that Rogers forced Campbell to
incriminate Megan. The data in Johnson’s report of the
first interview, the video of the second interview, and
Campbell’s testimony at trial is consistent. Campbell was
not under duress at trial.
Megan will take nothing from Rogers on her claim
that he manufactured evidence against her.
8. Megan and San Jacinto County.
Megan could recover damages from San Jacinto
County for the unconstitutional acts of its final policy
maker, Rogers.

31a
Appendix B
Megan’s claim against Rogers for writing a flawed
affidavit to search her is barred by limitations. Her claim
against Rogers for coercing Campbell to give a false
statement is not supported by the facts.
Because Megan takes nothing from Rogers, she will
take nothing from the county.
9. Junior and Rogers.
Junior seeks damages from Rogers for (a) writing a
misleading affidavit and (b) coercing Campbell’s testimony.
Rogers did not write the affidavits used to secure
warrants for Junior’s search and arrest. Junior will take
nothing from Rogers on this claim.
There are no facts to support Junior’s claim that
Campbell’s testimony was coerced. Junior will take
nothing from Rogers on this claim.
10. Junior and Johnson.
Junior seeks damages from Johnson because he
(a) wrote misleading affidavits to secure warrants and
(b) coerced Campbell’s testimony. Though his claim for the
search must be dismissed as brought after the limitations
period, the court still considers its merits.
A.

Misleading Affidavit to Search.

To recover, Junior must show that Johnson (a) violated
his rights and (b) was not protected by qualified immunity.

32a
Appendix B
Johnson violated Junior’s Fourth Amendment rights
if he recklessly included false information or excluded
important information from his affidavit. Even if Johnson
violated Junior’s rights, he is protected by qualified
immunity if the search was supported by probable cause.
Thus, Junior must show (a) Johnson’s recklessness in
writing a misleading affidavit and (b) that a reasonable
magistrate, reviewing a corrected affidavit could not have
found probable cause. A reasonable magistrate could
find probable cause in a corrected affidavit if it contained
enough facts to justify a belief that Junior murdered Burr.
The court now examines Junior’s evidence that his
rights were violated and compares Johnson’s affidavit
with a corrected affidavit.14
(I). Claimed Rights Violations.
Junior says that Johnson violated his Fourth
Amendment rights by recklessly excluding (a) the fact that
Campbell made two inconsistent statements; (b) the parts
of Campbell’s statement contradicted by other evidence;
and (c) the DNA and hair evidence.
(a). Exclusion of Inconsistent Statements
Not Reckless.
Junior says that: (a) Campbell’s two statements
were inconsistent, and (b) Johnson’s omission of the
inconsistencies from the affidavit was reckless.
14. An appendix compares the actual affidavit with a
corrected affidavit.

33a
Appendix B
The evidence does not show that the statements were
inconsistent. Assuming the inconsistencies, Johnson’s
exclusion of them was not reckless because they are not
grave enough to discount Campbell’s statements.
Campbell’s statements are not clearly inconsistent.
The first interview was not formal. Johnson’s notes
were not meant to be a complete record of Campbell’s
statement. The notes were part of a live report that was
supplemented later. Johnson told Campbell at the end of
their first meeting that he would return with Rogers to
take a full statement. It is likely that Campbell either told
a more complete story the second time or Johnson’s notes
from the first time were incomplete.
Even if Campbell intended to tell a full story both
times and added information the second time, Johnson’s
exclusion of that fact in the affidavit was not reckless. It
merely evinces that Johnson either did not (a) see any
inconsistencies between Campbell’s two statements or
(b) attach any importance to them. A jury cannot
reasonably find that he should have. Johnson did not
violate Junior’s rights by excluding the inconsistencies.
(b). Re ckl ess Ex clu s i o n of Pa r t s of
Campbell’s Statement.
Junior says that (a) other evidence gathered by the
investigators contradicted parts of Campbell’s statement,
and (b) Johnson recklessly omitted the inconsistent parts.
Johnson excluded portions of Campbell’s statement
that were contradicted by other evidence. Campbell

34a
Appendix B
said that Burr was beaten, cut, and shot. The autopsy
report showed that Burr was beaten and cut but not
shot. Campbell said Senior cut off Burr’s genitals and put
them in Burr’s mouth. There was no evidence of genital
mutilation.
Campbell also said that Senior stole a pistol and a
.3030 rifle. While Burr’s relatives confirmed that two guns
were missing, they said the guns were a shotgun and a .22
rifle. Campbell said that Senior hid the guns and a knife
in a hollow on Winfrey property. The investigators found
a place matching Campbell’s description but did not find
guns or a knife.
Johnson had either direct knowledge of these
inconsistencies or chose not to read the information in the
file he used to write the affidavit.
These omissions were reckless. Inconsistencies
between Campbell’s statement and other evidence are a
reason to doubt Campbell’s credibility. While the court
will conclude that these inconsistencies were not grave
enough to discount Campbell’s credibility, that decision
was not for Johnson to make. He should have presented all
of the important facts. Johnson violated Junior’s Fourth
Amendment rights.
(c). Reckless Exclusion of DNA and Hair
Evidence.
Johnson also omitted that the blood at the scene did
not match Megan and Junior and that the hair did not
match Megan.

35a
Appendix B
Johnson had either direct knowledge of this evidence
or chose not to read the information in the file he used to
write the affidavit.
Omission of this evidence was reckless. The lack of
blood from Megan and Junior at the crime scene decreased
the likelihood that they killed Burr. While the court will
conclude that the inclusion of this favorable evidence
would not have been enough to overcome a reasonable
belief that Junior and Megan were involved in the murder,
that decision was not for Johnson to make. He should
have presented all of the important facts. In not doing
so, Johnson violated Junior’s Fourth Amendment rights.
(2). Johnson Protected by Qualified Immunity.
Johnson was protected by qualified immunity because
a reasonable magistrate, reviewing a corrected affidavit,
would have found probable cause to search Junior.
Johnson had evidence of: (a) the relationship, possibly
romantic, between Megan and Burr; (b) her desire for his
hidden money, (c) the presence of Megan’s, Junior’s, and
Senior’s scents on Burr after his death, and (d) Campbell’s
statement that Senior murdered Burr with the help of
Megan and Junior.
Campbell was a credible source. Though he included
some details that did not match other evidence, the
majority of the facts he gave matched the investigators’
theory of the case. He also gave one fact — about the
missing guns — that was unknown at the time.

36a
Appendix B
Though the lack of DNA evidence decreases the
likelihood that Megan, Junior, and Senior killed Burr, it is
not enough to cast doubt on the investigators’ reasonable
belief of the Winfreys’ guilt. The investigators believed
that three or four people worked together to kill Burr and
that he was murdered while in his living room with people
he considered to be friends. They reasonably believed
that the Winfreys killed him without suffering an injury
in the process.
On the facts before it, the court can decide as a matter
of law that a reasonable magistrate, reviewing a corrected
affidavit, could have found probable cause to search Junior.
Junior will take nothing from Johnson on this claim.
B. Misleading Affidavit to Arrest Junior.
Junior says that Johnson recklessly wrote a misleading
affidavit for his arrest and that the arrest was not
supported by probable cause.
Johnson says that the court cannot consider this claim
because the affidavit for Junior’s arrest was destroyed
at Junior’s request. The four affidavits before the court
are substantively identical. The content of Junior’s arrest
affidavit was the same as Megan’s and Senior’s.
Because the search affidavit violated Junior’s rights,
the arrest affidavit did as well. The affidavit supporting
Junior’s arrest contained the same errors as the search
affidavit plus one additional error. The Lab reported that
the hairs gathered from Junior and Senior did not match

37a
Appendix B
the hair found at Burr’s house. That omission is unique
because it shows that someone was present in Burr’s house
other than Burr, Junior, Megan, and Senior.
The additional fact that someone else left hair at Burr’s
house does not cast enough doubt on the incriminating
evidence to overcome a reasonable belief that Junior
participated in Burr’s murder.
One the facts before it, the court can decide as a
matter of law that a reasonable magistrate, reviewing a
corrected affidavit, could have found probable cause to
search Junior. Junior will take nothing from Johnson on
this claim.
C.

Coercion of Campbell.

There are no facts to support Junior’s claim that
Campbell’s testimony was coerced. Junior will take
nothing from Johnson on this claim.
II. Megan and Johnson.
Megan seeks damages from Johnson because he
(a) wrote a misleading affidavit to secure a warrant for
Megan’s arrest, and (b) coerced Campbell’s testimony.
A.

Misleading Affidavit to Arrest Megan.

Johnson’s affidavit to arrest Megan contained the
same errors as his affidavits to search and arrest Junior.
Johnson violated Megan’s Fourth Amendment rights by

38a
Appendix B
recklessly omitting that (a) parts of Campbell’s statement
were inconsistent with other evidence; and (b) DNA and
hair evidence did not match any of the Winfreys.
Even if Johnson had corrected those errors, a
reasonable magistrate would have found probable cause
to arrest Megan. The evidence still indicated: (a) a
relationship, possibly romantic, between Megan and Burr;
(b) her desire for his hidden money; (c) the presence of
Megan’s, Junior’s, and Senior’s scents on Burr after his
death; and (d) Campbell’s statement that Senior murdered
Burr with the help of Megan and Junior.
On the facts before it, the court can conclude as a
matter of law that a reasonable magistrate reviewing a
corrected affidavit could have found probable cause to
arrest Megan. Megan will take nothing from Johnson on
this claim.
B. Coercion of Campbell.
There are no facts to support Megan’s claim that
Campbell’s testimony was coerced. Megan will take
nothing from Johnson on this claim.
12. Megan and Pikett.
Pikett invented and ran the scent-pad line-up that
identified Megan, Junior, and Senior as contributors to the
scents on Burr’s clothes. The investigators used the lineup to support probable cause to search and seize Megan.
Pikett testified about the line-up at Megan’s trial. Megan
says that Pikett manufactured the results of the line-up.

39a
Appendix B
A.

Pikett’s Background.

Pikett bought a bloodhound as a pet and decided
to train it. He attended seminars about how to use
bloodhounds to track people. Based on what he learned,
Pikett developed scent-pad line-ups as a tool to help police
officers.
Pikett has a bachelor’s degree in chemistry and a
master’s in sports coaching. He came up with scent-pad
line-ups on his own. He did not receive training, read
scientific literature, or publish peer-reviewed articles.
B. Performing the Line-Up.
Before meeting the lead investigators, Pikett asked
them to gather (a) scents from suspects and (b) scents
from the victim. Texas Ranger Grover Huff gave a piece
of gauze to each suspect, asked them to rub it on their
skin, and had them place the gauze in a plastic bag. Huff
also rubbed a piece of gauze on Burr’s clothes and put the
gauze in another plastic bag.
Pikett met the investigators in a field. Pikett brought
his dogs, unused paint cans, and filler scents that he took
from prisoners at the Fort Bend County Jail. Pikett stores
the filler scents in a duffle bag that he keeps in the back
of his SUV — the same place where his dogs ride daily.
Huff put either a suspect’s scent or a filler scent in
each paint can. Huff then put the paint cans in the field
while Pikett prepared one of his dogs. Pikett then gave
the dog the victim’s scent.

40a
Appendix B
Pikett walked the dog next to each can to see if the
dog “alerted” on any of the cans. Each dog’s alert varies.
Pikett has been unable to train his dogs to alert in a
specific manner. Instead, he learns each dog’s individual
alert as he works with it. If the dog alerts on a can, Pikett
concludes that the scent in the can matches the scent from
the victim’s clothes.
After the first dog did the line-up, Pikett did the same
line-up one or two additional dogs to confirm the initial
result. The position of the cans was not altered for each
dog.
Both of the dogs used alerted on Megan’s scent and
Junior’s scent as a match to the scent on Burr’s clothes.
All three of the dogs used alerted on Senior’s scent as a
match.
C.

Megan’s Claims against Pikett.

Megan sues Pikett for violating her constitutional
rights by fabricating the results of the scent-pad line-up.
Megan must show that Pikett (a) violated her rights and (b)
was not protected by qualified immunity from damages.
If Pikett fabricated scientific evidence to help justify
Megan’s imprisonment, he violated her Fourteenth
Amendment due process rights. His qualified immunity
does not protect him from deliberately or recklessly
creating a scientifically inaccurate report.15 Pikett’s
15. Brown v. Miller, 519 F.3d at 237 (5th Cir. 2008).

41a
Appendix B
behavior is measured against what a reasonable police
officer with his training and experience should have known
about the reliability of his report.
D.

Nicely Report.

In evaluating Megan’s claim, the court considers the
technician’s report submitted by Megan. Pikett objects
because Steven Nicely has no experience with scent-pad
line-ups or training bloodhounds. Nicely has extensive
experience with scent detecting dogs. No technician has
experience with scent-pad line-ups other than Pikett and
the people he trained. Nicely’s report will be admitted and
considered commensurate with his experience.
Nicely watched the video of Pikett’s line-up and
reviewed Pikett’s deposition. Nicely found that: (a) newer
scents stand out as fresher amongst older scents; (b) scents
from people who live in the same place smell similarly;
(c) dogs can become accustomed to scents if they are
exposed to them regularly; (d) Pikett’s claim that his dogs
are accurate ninety-nine percent of the time is unreliable;
(e) Pikett may have influenced his dogs because he kept
them on a short leash and could see in the cans; and (f) the
dogs may have responded to deliberate cues from Pikett.
E. Insufficient Distractors.
Pikett’s filler scents were not useful distractors. Most
of the scents were old, came from people who lived in the
same place, and were stored in a location near the dogs.

42a
Appendix B
Pikett kept the filler scents for as long as three years.
The scents from the suspects were new. According to
Nicely, newer scents stand out amongst older scents. The
dogs may have alerted to Megan’s scent because it was
fresher than the others.
Most of the filler scents came from the Fort Bend
County Jail. According to Nicely, the filler scents that
came from the Jail had a common institutional scent. The
dogs may have alerted on Megan’s scent because it stood
out amongst the scents from the same place.
Pikett also stored the filler scents in a duffle bag in
the back of his SUV. The dogs rode daily in the car next
to the bag. According to Nicely, the dogs may have become
accustomed to the filler scents because of prolonged
exposure. The dogs may have alerted on Megan’s scent
because it was the only one they did not recognize.
Pikett testified at Megan’s trial that his dogs have
an accuracy rate between ninety-nine and one hundred
percent. According to Pikett, he believes his dogs are
wrong only when they “identif[y] the wrong person in
the line-up.”
Pikett cannot check his dogs’ accuracy because no
other test compares scents. It is more accurate to say that
his dogs have only chosen a filler scent instead of a target
scent twice out of a nearly a thousand line-ups. Nicely
reports that a success rate of over ninety-nine percent is
highly unlikely for scent identifying dogs.

43a
Appendix B
Such a high success rate is an indication not that the
dogs are accurate but that the filler scents are defective
as distractors.
F.

Pikett’s Influence.

Pikett’s method may allow him to intentionally or
subconsciously influence the outcome of the line-up. Pikett
kept his dogs on a short leash and looked down while
walking by each can. He used paint cans that did not have
lids on them. He may have consciously or unconsciously
influenced the result.
Pikett looked down while walking the line-up and did
not ensure that the bags and gauze used for the suspects
matched those used for his filler scents. Pikett may have
been able to tell which can contained a suspect’s scent by
looking into the can. Also, when Pikett ran the second or
third dogs, he knew which can the first dog had alerted on.
By keeping the dogs on a short leash, Pikett may have
been able to cue the dogs to alert. According to Nicely, a
dog may be cued intentionally or subconsciously. He also
says that the dogs should have been trained to run the
line-ups by themselves, with a different handler who did
not train them, or at least given a longer leash with more
slack to prevent cuing.
G. Dog’s Alert.
Pikett admits that he did not successfully train his
dogs to alert in a specific way. Instead, he claims that he

44a
Appendix B
knows each dog’s alert and can describe the alert before
running the line-up. At Megan’s trial, he said that anyone
watching the line-up should be able to tell when the dog
alerts but recently admitted that, as the handler, he is
uniquely able to feel it.
According to Nicely, the video does not clearly show
the dogs alerting on Megan’s scent. It is also unclear
whether Pikett cues the dogs or whether their reactions
are caused by smelling the scents.
H. Pikett’s Culpability.
Megan has shown that the line-ups were likely
to confirm the investigators’ suspicions by linking
the suspects’ scents to the victim’s scent. This could
have happened due to ineffective filler scents, Pikett’s
subconscious acts, or Pikett’s intentional acts. Though he
may not have had a motive to harm Megan individually, his
methods may have been designed to help officers confirm
their suspicions.
Dogs help humans in a variety of difficult jobs. Dogs
reliably guide the blind, flush game, comfort the ill,
locate the lost, subdue the violent, interdict contraband,
intimidate intruder, herd livestock, and track the fugitive.
While using a dog to alert among scents to connect
a suspect to an artifact of the crime follows the pattern
of these uses, Megan has introduced enough evidence
to create a question about whether Pikett recklessly or
intentionally designed a flawed test. Her claims against

45a
Appendix B
Pikett for fabricating evidence that was used to support
her seizure, prosecution, and imprisonment survive.
13. Conclusion.
Megan and Junior take nothing on their claims for
illegal search against Johnson and Rogers because they
sued after the limitations period.
The court can conclude as a matter of law that Rogers
and Johnson are protected by qualified immunity for their
arrests of Megan and Junior.
The county is not liable because Rogers is not liable.
No facts support the claims that Johnson and Rogers
fabricated Campbell’s testimony.
The court cannot decide as a matter of law whether
Pikett’s use of scent-pad line-ups to produce evidence
against Megan was reckless. Megan’s claim against Pikett
survives.
Signed on October 4, 2016, at Houston, Texas.
/s/ Lynn N. Hughes
Lynn N. Hughes
United States District Judge

46a
Appendix B
Appendix
Johnson Affidavit
Junior and Megan visited
Burr and asked to move
in with him, but he said
no.
A teacher saw an intimate
exchange between Megan
and Burr in which Megan
asked Burr to spend some
of the money he had hidden at his house on her.

Corrected Affidavit
Same.

A second teacher saw an
angry exchange between
Megan and Burr after
which she muttered that
someone should beat the
shit out of him.

Same.

A third teacher said she
was assaulted by Megan
over a year before the
murder.
The line-up established
that Megan’s and Junior’s scents were on
Burr’s clothes.

Same.

Same.

Same.

47a
Appendix B
Johnson Affidavit
A scent trail connected
Burr’s house to the Winfreys’ house.

Corrected Affidavit
A scent trail connected
Burr’s house to the Winfreys house, though the
scent used to trace the
trail belonged to Chris
Hammond, Megan’s boyfriend.

Omitted.

Megan and Junior did not
contribute to the blood at
the scene and Megan’s
hair did not match hair
found at the scene.

Campbell shared a prison
cell with Senior who admitted to killing Burr.

Same.

Senior told Campbell that
Megan and Junior let him
in the back of the house.

In an initial interview,
Campbell said that Megan and Junior let Senior
in the back of the house.
Campbell later said that
Senior was accompanied
by a cousin.
Campbell only revealed
that he knew Burr was in
the living room when he
was killed in the second
interview.

Campbell knew that Burr
was in the living room
when Burr was killed.

48a
Appendix B
Johnson Affidavit
Campbell knew that Burr
was badly beaten and
that his neck was cut.

Omitted.

Senior told Campbell that
he stole two guns from
Burr’s house. Burr’s relative confirmed that two
guns were missing from
Burr’s house after the
murder — a shotgun and
a .22 rifle. The investigators were not aware of
the missing guns before
Campbell’s statements.

Corrected Affidavit
Though Campbell knew in
both interviews that Burr
was beaten and cut, in the
second interview he said
that Burr was also shot —
a fact contradicted by the
autopsy report.
Campbell thought that
Senior cut off Burr’s
genitals and put them in
Burr’s mouth.
Senior told Campbell that
he stole two guns from
Burr — a pistol and a
.3030 rifle. Burr’s relative
confirmed that two guns
were missing from Burr’s
house after the murder —
a shotgun and a .22 rifle.
The investigators were
not aware of the missing
guns before Campbell’s
statement. Campbell did
not mention the guns until
the second interview.

49a
Appendix B
Johnson Affidavit
Senior told Campbell
that he hid the guns and a
buck knife in a hollow on
Winfrey property.

Corrected Affidavit
Senior told Campbell that
he hid the guns and a knife
in a hollow on Winfrey
property. The investigators located an area that
matched that description
but did not find the guns
or knife.

50a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT, FILED APRIL 30, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-20022
MEGAN WINFREY,
Plaintiff-Appellant,
v.
LENARD JOHNSON, FORMER SAN JACINTO
COUNTY SHERIFF’S DEPUTY CHIEF,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion March 26, 2019, 5 Cir.,

,

F.3d

)

Before JONES, HAYNES, and OLDHAM, Circuit
Judges.
PER CURIAM:

51a
Appendix C
(X) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (fed. r. a PP. P. and 5TH CIr. R. 35), the Petition
for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(fed. r. a PP. P. and 5TH CIr. R. 35), the Petition for
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/						
UNITED STATES CIRCUIT JUDGE

